No. _________
IN THE

Supreme Court of the United
States
—————♦—————
ASAP COPY & PRINT et al., Petitioners,
v.
CANON SOLUTIONS AMERICA, INC,
Respondents.
—————♦—————
On Writ of Certiorari to the
California Court of Appeal for the Second
Appellate District
—————♦—————
PETITION FOR A WRIT OF CERTIORARI
—————♦—————
NINA R. RINGGOLD
Counsel of Record
LAW OFFICES OF NINA R. RINGGOLD
17901 Malden St.
Northridge, CA 91325
Telephone: (818) 773-2409

i
QUESTIONS PRESENTED
1.
Whether in conflict with the clear
authority of this court California’s common law
concept of “law of the case” may defeat the command
of 28 U.S.C. § 1446 (d) that a state court shall
proceed no further without a remand order from the
federal court?
2.
Whether section 5 of California Senate
Bill x211, which provides retroactive “superimmunities” to state judges of the courts of record
violates the Supremacy Clause and the Civil Rights
Act of 1886? And whether the involuntary waiver of
federal rights caused by this provision can be
effectuated in court proceedings when the state fails
to maintain a proper or adequate official record?
3.
Whether Justice Elwood Liu and
the judicial panel’s failure to recuse
themselves from participation in the case, due
to financial and general interests, violated the
Due Process Clause of the Fourteenth
Amendment?

ii
PARTIES TO THE PROCEEDINGS, RULE 29.6
STATEMENT, AND STATEMENT OF RELATED
CASES
The parties are Ali Tazhibi; Ali Tazhibi dba
ASAP Copy and Print; Azita Daryaram; Masih
Tazhibi; Matin Tazhibi; ASAP Services, Inc.; Nina R.
Ringgold, Esq.; and Law Offices of Nina R. Ringgold.
ASAP Copy and Print has no parent company and no
publicly held company owns 10% or more of stock in
the company. ASAP Services, Inc. has no parent
company and no publicly held company owns 10% or
more of stock in the company.
Inc.

The respondent is Canon Solutions America,

Pursuant to Rule 14.1 (b)(iii), petitioners
provide the following statement of related cases:
United States Court of Appeals for the Ninth Circuit
Nina Ringgold; et al v. Jerry Brown, in his
Individual and Official Capacity as Governor
of the State of California and in his Individual
and Official Capacity as Former Attorney
General of the State of California et al, No 1716269. (herein referred to as the “voting rights
case”).

iii
Prior Case:
ASAP Services, Inc. et al v. Court of Appeal of
California, Second Appellate District et al., No. 1555818, Judgment August 23, 2016, Petition for A
Writ of Certiorari filed November 21, 2016 and
denied February 21, 2017, No. 16-718. There does
not exist a remand order from the United States
District Court as to a February 23, 2015 notice of
appeal filed in the state trial court. Therefore this
case is related to this petition.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS,
RULE 29.6 STATEMENT, AND
STATEMENT OF RELATED CASES ..................... ii
TABLE OF CONTENTS ........................................... iv
INDEX TO APPENDICES ....................................... vi
TABLE OF AUTHORITIES .................................... vii
PETITION FOR WRIT OF CERTIORARI ............... 1
OPINIONS BELOW................................................... 1
JURISDICTION ......................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ........................................ 2
INTRODUCTION ..................................................... 8
STATEMENT ........................................................... 13
REASONS FOR GRANTING THE WRIT OF
CERTIORARI ........................................................... 23

v
I. Certiorari Should Be Granted Because The
Questions Presented Are Exceptionally
Important To The Preservation Of Public
Confidence In The State Court Systems Across
The Nation ................................................................ 23
II. Under Established Precedent Of This Court
If A State Court Continues To Exercise
Jurisdiction In The Absence Of A Remand
Order The Proceedings Are Void And A State’s
Common Law Doctrine Of Law Of The Case Is
Irrelevant .................................................................. 25
III. Under The Supremacy Clause And The
Civil Rights Act Of 1866 California Courts
Cannot Force Objecting Racial And Language
Minority Court Users To Involuntarily Waive
Federal Rights In Proceedings That Lack An
Official Record ......................................................... 27
IV. The Refusal Of Justice Elwood Liu And
Other Panel Members Of The California Court
Of Appeal For The Second Appellate District To
Recuse Conflicts With Established Due Process
Precedent Of This Court. ........................................ 30
CONCLUSION ........................................................ 41

vi
INDEX TO APPENDICES
Appendix A: January 23, 2019 Judgment Of The
California Court Of Appeal Second Appellate
District. ...................................................................... 1
Appendix B: April 10, 2019 California Supreme
Court Order Denying Petition For Review. ........... 23
Appendix C: February 13, 2019. (Undated) Order
Denying Petition For Rehearing. (Emailed to
Counsel By Clerk Of Court On
February 13, 2019) . ................................................ 24
Appendix D: August 24, 2018. Appellants'
Request for Judicial Notice (Including Orders
Of The Federal Court Unsealing Records
Applicable To The State Court Proceedings) .......... 25
Appendix E: August 14, 2014 Request for
Depublication of Arthur Gilbert v. John Chiang,
As State Controller, Etc. In The California
Supreme Court By Members of the Voting Rights
Case And Others Served On Elwood Liu, Esq.as
Counsel for Current Justice of the California
Court Of Appeal for the Second Appellate
District. ..................................................................... 51
Appendix F: Pertinent California Authorities: Cal.
Const. Art. VI §§ 17, 21; Cal. Gov. Code § 53200.3
(deemed unconstitutional); Cal. Code of Civil
Procedure §§ 681.020, 673. ...................................... 66

vii
TABLE OF AUTHORITIES
CASES
Abbott v. McNutt,
218  Cal.  225  (Cal.  1933) .............................................. 14
Aetna Life Insurance Company v. Lavoie,
475 U.S. 813 (1986) ........................................ 30,37,38
Alex v. County of Los Angeles,
35 Cal. App.3d 994 (Cal. 1973) .............................. 14
Bigbee v. Pacific Tel. & Tel. Co.,
34 Cal.3d 49 (Cal. 1983) ........................................ 25
Boddie v Connecticut,
401 U.S. 371(1971) ................................................ 28
Bryan County Comm’rs v. Brown,
520 U.S. 397 (1997) .................................................. 28
Caperton v. A. T. Massey Coal Co., Inc.,
556 U.S. 868 (2009) ................................ 30,35,38,39
City of Canton v. Harris,
489 U.S. 378 (1983) .................................................. 28
Commonwealth Coatings Corp. v. Cont’l Cas. Co.,
393 U.S. 145 (1968) .................................................... 2

viii
Garza v. County of Los Angeles,
918 F.2d 763 (9th Cir. 1990) ............................. 13,15
Gibson v. Berryhill,
411 U.S. 564 (1973) ................................ 30,31,36,37
Gilbert v. Chiang,
227 Cal.App.4th 537 (2014)

........................ 21,22,31

Gomillion v. Lightfoot,
364 U.S. 339 (1960) ................................................ 29
Griffin v. Illinois,
352 U.S. 12 (1956) ................................................. 28
In re Murchison,
349 U.S. 133 (1955) ........................................... 31,38
Laborers’ Internt. Un. Of NA Local
No. 107 v. Kunco,
472 F.2d 456 (8th Cir. 1973) ) ................................ 19
March v. Barnet,
121 Cal. 419 (Cal. 1898) .......................................... 26
Monell v. Dept. of Social Services of City
of New York,
436 U.S. 658 (1978) ................................................ 28
National S.S. Co. v. Tugman,
106 U.S. 118 (1882) ............................................... 25

ix
People v. Tijerina,
1 Cal.3d 41 (Cal. 1969) ........................................... 26
Rooney v. Vermont Investment Corporation,
10 Cal.3d 351 (Cal. 1973) ....................................... 26
Tumey v. Ohio,
273 U.S. 510 (1927) ........................................ 35,36,39
United Retail & Wholesale Emp. v. Yahn &
McDonnell,
787 F.2d 128 (1986) ................................................. 31
Ward v. Monroeville,
409 U.S. 57 (1972) ..................................... 24,30,31,39
Withrow v. Larkin,
421 U.S. 35 (1975) ................................................. 33
CONSTITUTIONAL PROVISIONS AND
STATUTES
U.S. Const., Art. VI cl. 2 ................................ passim
U.S. Const., amend. I ............................................. 33
U.S. Const., amend. XIV ................................ passim
Cal. Const., Art. VI §17 ............................... 7,8,26,34
Cal. Const., Art. VI § 21 ...................................... 7,26
15 U.S.C. 1673 (a) and (c)

............................... 1,6,11

x
28 U.S.C. § 1257 (a) .................................................. 2
28 U.S.C. § 1446 (d) ..................................... I,5,24,25
Civil Rights Act of 1866 ................................. passim
P.L. 89-110, August 6, 1965
79 Stat, 445 (The Voting Rights Act of 1965) ........ 13
Cal. Code of Civil Procedure § 681.020 ................... 7
Cal. Code of Civil Procedure § 673 .......................... 7
Cal. Govt. Code § 53200.3
(deemed unconstitutional) ............................. passim
Section 5 of California
Senate Bill 211 (“SB x211”) ........................... passim
SUPREME COURT RULES
Rule 12.4 ..................................................................... 1
Rule 14.1 (b)(iii) ......................................................... ii

xi
OTHER
CJEO, Formal Opinion 2013-002 (2013), Disclosures
on the Record When There is no Court Reporter or
Electronic Recording of the Proceedings, California
Supreme Court Committee on Judicial Ethics
Opinion ................................................................... 28
CJEO Formal Opinion 2017-011 (2017), Judicial
Service On A Nonprofit Charter School Board,
California Supreme Court Committee on Judicial
Ethics Opinion ....................................................... 30
Model Code of Judicial Conduct,
Canon, 2, Rule 2.11 (A)(2)(c) & (A)(6)(a) .............. 34
Cal. Attorney General Opn 83-607
66 Cal. Attorney General 440 ................................ 14
California Law Revision Commission, Staff
Memorandum 95-79 (Study J-1200), Trial Court
Unification: Voting Rights Act
(December 4, 1995) ................................................ 15

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Ali Tazhibi; Ali Tazhibi dba ASAP
Copy and Print; Azita Daryaram; Masih Tazhibi,
Matin Tazhibi, ASAP Services, Inc., Nina R.
Ringgold, Esq.; and Law Offices of Nina R. Ringgold
respectfully request that a writ of certiorari issue to
review the judgments of the California Court of
Appeal for the Second Appellate District. Nina
Ringgold, Esq. and the Law Office of Nina Ringgold
join in this petition pursuant to Rule 12 (4).
__________♦__________
OPINIONS BELOW
The opinion of the California Court of Appeal,
Second Appellate District dated January 23, 2019 in
ASAP Copy and Print et al. v. Canon Solutions,
America was rendered on January 23, 2019. It is not
published in the California Reporter and is reprinted
in the Appendix. (App. at 1-22). The opinion
affirmed the orders of the Superior Court of the
County of Los Angeles that allowed levies against
bank accounts of Ali Tazhibi and his family in an
amount that exceeded 100% of his disposable income
in violation of 15 U.S.C. § 1673 and awarded
attorney fees. The levies were made by Canon
Solutions America when this entity had not been
made a party to the proceeding and was not an
assignee of a judgment or of record. (See App. 6768). Additionally, the opinion held that the state
common law doctrine of law of the case allows

2
disregard of the lack of a remand order from the
federal court or the lack of fundamental jurisdiction.
The Second District denied a request for rehearing
on February 13, 2019. (App. 24). The California
Supreme Court as the state court of last resort
denied discretionary review on April 10, 2019. (App.
at 23).
On June 28, 2019 Justice Kagan granted an
extension of time within which to file this petition for
writ of certiorari to and including August 8, 2019.
_________♦__________
JURISDICTION
The jurisdiction of this Court is invoked under
the provisions of Title 28, United States Code,
Section 1257 (a).
__________♦__________
CONSTITUTIONAL AND STATUORY
PROVISIONS INVOLVED
The Supremacy Clause of the Constitution,
Article VI, Section 2, in pertinent part states:
This Constitution, and the Laws of the
United States which shall be made in
pursuance thereof; and all treaties
made, or which shall be made, under
the authority of the United States, shall
be the supreme law of the land; and the
judges in every state shall be bound

3
thereby, anything in the constitution or
laws of any state to the contrary
notwithstanding.
The Fourteenth Amendment of the United States
Constitution provides in pertinent part that:
No state shall…make or enforce any
law which shall abridge the privileges
or immunities of citizens of the United
States; nor shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
The Civil Rights Act of 1866 in pertinent part
states:
Section 1
“That all persons born in the United
States and not subject to any foreign
power, excluding Indians not taxed, are
hereby to be citizens of the United States;
and such citizens, of every race and color,
without regard to any previous condition
of slavery or involuntary servitude,
except as a punishment for crime whereof
the party shall have been duly convicted,
shall have the same right, in every State
and Territory in the United States, to
make and enforce contracts, to sue, be

4
parties, and give evidence, to inherit,
purchase, lease, sell, hold, and convey
real and personal property, and to full
and equal benefit of all laws and
proceedings for the security of person and
property, as is enjoyed by white citizens,
and shall be subject to like punishment,
pains, and penalties, and to none other,
any law, statute, ordinance, regulation,
or custom, to the contrary
notwithstanding.”
Section 3
“That the district courts of the United
States, within their respective districts,
shall have, exclusively of the courts of
the several States, cognizance of all
crimes and offences committed against
the provisions of this act, and also,
concurrently with the circuit courts of
the United States, of all causes, civil
and criminal, affecting persons who are
denied or cannot enforce in the courts or
judicial tribunals of the State or locality
where they may be any of the rights
secured to them by the first section of
this act; and if any suit or prosecution,
civil or criminal, has been or shall be
commenced in any State court, against
any such person, for any cause
whatsoever, or against any officer, civil
or military, or other person, for any

5
arrest or imprisonment, trespasses, or
wrongs done or committed by virtue or
under color of authority derived from
this act or the act establishing a Bureau
for the relief of Freedmen and Refugees,
and all acts amendatory thereof, or for
refusing to do any act upon the ground
that it would be inconsistent with this
act, such defendant shall have the right
to remove such cause for trial to the
proper district or circuit court in the
manner prescribed by the ‘Act relating
to habeas corpus and regulating judicial
proceedings in certain cases,’ approved
March three, eighteen hundred and
sixty-three, and all acts amendatory
thereof. The jurisdiction in civil and
criminal manners hereby conferred on
the district and circuit courts of the
United States shall be exercised and
enforced in conformity with the laws of
the United States, so far as such laws
are suitable to carry the same into
effect….”
28 U.S.C. § 1446 (d) states:
“(d) Notice to adverse parties and State
court.--Promptly after the filing of such
notice of removal of a civil action the
defendant or defendants shall give
written notice thereof to all adverse
parties and shall file a copy of the notice

6
with the clerk of such State court, which
shall effect the removal and the State
court shall proceed no further unless
and until the case is remanded.”
15 U.S.C. 1673 (a) and (c) states:
(a) Maximum allowable garnishment
Except as provided in subsection (b) and
in section 1675 of this title, the
maximum part of the aggregate
disposable earnings of an individual for
any workweek which is subjected to
garnishment may not exceed
(1) 25 per centum of his disposable
earnings for that week, or
(2) the amount by which his disposable
earnings for that week exceed thirty
times the Federal minimum hourly
wage prescribed by section 206 (a)(1) of
Title 29 in effect at the time the
earnings are payable, whichever is less.
In the case of earnings for any pay
period other than a week, the Secretary
of Labor shall by regulation prescribe a
multiple of the Federal minimum
hourly wage equivalent in effect to that
set forth in paragraph (2).
….

7
(c) Execution or enforcement of
garnishment order or process prohibited
No court of the United States or any
State, and no State (or officer or agency
thereof), may make, execute, or enforce
any order or process in violation of this
section.
Section 5 of California Senate Bill x211 (“Section 5 of
SB x211”) states:
Notwithstanding any other law, no
governmental entity, or officer or
employee of a governmental entity,
shall incur any liability or be subject to
prosecution or disciplinary action
because of benefits provided to a judge
under the official action of a
governmental entity prior to the
effective date of this act on the ground
that those benefits were not authorized
under law.
The following constitutional, statutory, and
other authorities of the State of California are also
involved or may be pertinent in this petition: Section
provisions of Article VI (Judicial) of the California
Constitution, §§ 17, 21; California Government Code
§53200.3 (deemed unconstitutional)), California Code
of Civil Procedure § 681.020, and California Code of
Civil Procedure § 673.

8
__________♦__________
INTRODUCTION
In 2008 California Government Code §
53200.3 was deemed unconstitutional. It had allowed
state judges of the courts of record to be county
employees. (App. 67). California Constitution
Article VI § 17 commands that a judge’s acceptance
of public employment or office shall result in
automatic resignation from judicial office. (App. 66).
On February 11, 2009 Section 5 of California Senate
Bill x211 was enacted. It purports to override the
Supremacy Clause, the Civil Rights Act of 1866, and
other federal law and to give retroactive “superimmunities” including immunity as to civil, criminal,
or disciplinary action to state court judges on the
ground they were provided benefits not authorized
by law. The California Commission on Judicial
Performance twice rendered opinions that the
statute was unconstitutional and undermined its
constitutional authority. It delivered those opinions
to the highest law enforcement officers of the state at
the time: Jerry Brown and Kamala Harris. It
requested a formal legal opinion from the Office of
the State Attorney General. Brown and Harris did
nothing.
In 2012 when state courthouses were being
shutdown and official court reporting services were
being terminated, and tremendous numbers of
grievances had been filed concerning discrimination

9
in the court, rules were developed that allowed
review of judicial administrative records. In this
same year racial and language minorities filed a
federal class action voting rights case seeking a
supervised special judicial election. Petitioner Ali
Tazhibi is one of the lead voters identified in the
case.
The voting rights case, in part, claims vote
dilution methods as to racial and language
minorities (in violation of existing federal decrees);
methods of intimidation, threats, coercion or
attempts to do so; concealment of material facts in
judicial elections; failure to disclose constitutional
vacancies of office that require a judicial election;
and failure to disclose truthful, correct, and
necessary information concerning judicial candidates
on the ballot itself (i.e. by omitting the names of
judges subject to constitutional resignation).
Additionally the case requests certain fines and
penalties for the benefit of the class based on the
failure to make mandatory disclosures under the
California Political Reform Act.
Two tracks of litigation resulted. Racial and
language minorities on one track and current and
former justices of the Court of Appeal for the Second
Appellate District on the other track. The justices
were indirectly challenging the voting rights case
and the opinions of the Commission on Judicial
Performance before their peers in the state court.
This litigation was headed by then Elwood Lui, Esq.
He was a former justice of the Second District, went

10
into private practice (handled the cases of former or
current justices in the Second District), and then
returned to the Second District and wrote the
opinion at issue against a lead plaintiff in the voting
rights case.
On February 20, 2014 in related litigation the
California Supreme Court, California Judicial
Council, presiding justice of the California Court of
Appeal for the Second Appellate District, certain
judges of the Superior Court, and others filed a
certificate of interested parties in the federal court
admitting that they had financial and non-financial
interests in the matters in controversy or parties in
the proceedings (including the petitioners herein).
(App. 28-33).
On August 24, 2014 members of the voting
rights case and Elwood Liu, Esq. appeared on
opposing sides before the California Supreme Court
on matters related to issues in the instance case and
in the related voting rights case. (App. 51-65).
Elwood Liu, Esq. was appointed by Jerry
Brown to the Second District on May 22, 2015. In
2017 Justice Liu was appointed by Brown to Division
2 as presiding justice. The instant appeal was filed
on August 3, 2017 and assigned to the division of
now Justice Liu. Justice Liu and the panel denied
requests for recusal and/or disqualification. Justice
Liu then wrote the decision at issue herein that
upheld levies against the bank accounts of Ali
Tazhibi, his terminally ill wife, and his minor

11
children that exceeded 100% of Ali Tazhibi’s
disposable income in violation of 15 U.S.C. § 1673.
The levies were engaged by Canon Solutions
American when it was not a party, or an assignee of
a judgment, or an assignee of record. (See App. 6769).
Members of the voting rights case with cases
still pending in the state court claim that have been
subjected to severe and relentless retaliation, just
like the petitioners herein. They attempted to
remove their cases to the federal court in part under
the Civil Rights Act of 1866. Petitioner Ali Tazhibi
filed and perfected removal to the federal court and
to the present date all matters were not remanded.
The decision authored by Justice Liu determined
that the state common law doctrine of law of the case
allows disregard of the lack of a remand order from
the federal court.
There is a brewing constitutional crisis in the
California Court System and the overarching concern
is: Who will decide what to do about the
unconstitutional public employment and public office
by state court judges of the courts of record. And
who will declare Section 5 of SB x211
unconstitutional? And, what objective procedures
will be put in place, to safeguard the public, during
implementation of the necessary special election
when it occurs. Additionally, the question is whether
the racial and language minorities who claim that
they are being retaliated for refusing to involuntarily
waive federal rights under Section 5 of SB x211 will

12
be granted the necessary protection that federal law
is to provide.
With the California Supreme Court filing an
admission of disqualifying interests in the federal
court,1 the petitioners assert that this court should
determine that Section 5 of SB x211 violates the
Supremacy Clause and the 1866 Act and other
federal law. Alternatively, in the voting rights case
that will shortly reach this court, it is requested that
an out of state three-judge court determine the issue.
Recusal under the Due Process Clause was
required by impacted judges and justices that have
direct and indirect financial and general interests in
the matters in controversy and the voting rights
case..

1

App. 28-33.

2 Citations are to USCA 9th Cir. Case No. 15-55818. (Excerpts
of record in the civil rights removal appeal that relates to the
state proceedings operating without a remand order at issue in
the instant petition).
3

California Law Revision Commission, Staff Memorandum 95-

13
__________♦__________
STATEMENT
A. A Historical View Of The Development Of
Public Employment Of Judges Of The Courts
Of Record
The conflict between section 5 of SB x211 and
the Supremacy Clause and the Civil Rights Act of
1866 is more clearly understood by considering the
relationship between: (1) The finding of intentional
discriminatory vote dilution in the case of Garza v.
County of Los Angeles, 918 F.2d 763 (9th Cir. 1990)
and the resulting federal consent decree in the
County of Los Angeles and (2) the effect of California
trial court unification.
In 1988 Hispanics in the County of Los
Angeles filed a voting rights action seeking to redraw
the district for the Los Angeles County Board of
Supervisors. They claimed that the boundaries were
gerrymandered to dilute Hispanic voting strength.
Garza confirmed that the County had engaged in
intentional discrimination in dilution of the Hispanic
vote. The county is covered under the bail in
mechanism under section 3 (c) of the Voting Rights
Act of 1965 As Amended.
In the same year, 1988, California voters
overwhelmingly passed proposition 97, a legislative
constitutional amendment, to permit judges of the
courts of record to accept part-time teaching

14
positions. The November 8, 1988 ballot pamphlet
informed voters that public employment of a judge of
a court of record was prohibited and that a
constitutional amendment was needed to allow a
limited exception for part time teaching. A member
of the Legislature, President of the California Judges
Association, and the President of the State Bar
informed voters in the November 8, 1988 ballot
pamphlet for the General Election, as follows:
“The Constitution prohibits judges of
the courts of record from accepting
public employment or public office
outside their judicial position during
their term of office…..The prohibition
applies during the time the judge is
actually in office and during the entire
term for which the judge was selected,
even if the judge has resigned part way
through the term.” (App. 58, See also
15-55818 Dkt 8-8 BS 1828)2.
Two days after the election, on November 10,
1988, county counsel provided a legal opinion that
judges of courts of record could remain county
employees and officials or quasi officials in conflict
with the state constitution. (Id. 1815-1822). This
opinion directly conflicted with the constitutional
Citations are to USCA 9th Cir. Case No. 15-55818. (Excerpts
of record in the civil rights removal appeal that relates to the
state proceedings operating without a remand order at issue in
the instant petition).
2

15
amendment just passed and existing provisions of
the state constitution. See Alex v. County of Los
Angeles, 35 Cal. App.3d 994 (Cal. 1973), Abbott v.
McNutt, 218 Cal. 225 (Cal. 1933), Cal. Attorney
General Opn 83-607, 66 Cal. Attorney General 440.
County counsel went on to advise that even if
the public employment was not authorized by statute
that the county could act “so long as the Board of
Supervisors finds that there is a benefit to the
County in doing so.” (15-55818 Dkt 8-8 BS 1821). It
claimed that “[i]t may be necessary for the Board of
Supervisors to provide additional benefits for judges
in the future in order to maintain a high level of
judicial competence and performance in this County.”
(Id. BS 1822). However, voters, not the County Board
of Supervisors, had the sole power and right to elect
judges to office. Two years later Garza was decided.
There began a push to unify the trial courts, which
would change voting in judicial elections from
municipal districts to countywide elections. The
California Law Revision Commission warned prior to
trial court unification that there could be serious
violations of the Voting Rights Act particularly in
large Counties such as Los Angeles.3 The county
then offered its unconstitutional financial “incentive”
to have judges vote in favor of unification, which
would increase their compensation and allow them to
be county employees.
3 California Law Revision Commission, Staff Memorandum 9579 (Study J-1200), Trial Court Unification: Voting Rights Act
(December 4, 1995).

16
After California Government Code § 53200.3
was deemed unconstitutional, section 5 of SB x211
was enacted. This caused the California Commission
on Judicial Performance to issue its opinions that
section 5 of SB x211 was unconstitutional. (15-55818
Dkt 8-5 BS 890-899, Dkt 8-8 BS 1734-1746). Racial
and language minorities (deprived of a fair
opportunity to elect judges) objected to the
involuntarily waiver of rights afforded under federal
law including under the Civil Rights Act of 1866.
The impacted state judges and justices
launched a series of cases handled by then Attorney
Elwood Liu to indirectly compete with the voting
rights case focusing on their compensation.
B. Background Of The State Court Case
Ali Tazhibi (“Tazhibi”) is a small immigrant
merchant operating ASAP Copy and Print. He filed
an action in the Superior Court of the County of Los
Angeles in 2008 for unfair business practices and
other claims against Canon Business Solutions, Inc.,
Canon Financial Services, Inc., and General Electric
Capital Corporation.
Petitioners did not receive disclosure at the
filing window or at any point in time that the person
assigned to the case was or could be subject to
constitutional resignation. Shortly after the case was
filed uncodified section 5 of SB x211 was enacted.
Petitioners never received notice that there would be

17
a requirement to involuntarily waive federal rights
or that there would be a termination of official court
reporting services. After discovery, to retaliate and
intimate petitioners for raising concerns about the
involuntary waivers of federal rights caused by
section 5 of SB x211, evidence dispositive to Tazhibi
and ASAP Copy and Print’s case (collectively
“ASAP”) was sealed. After granting ASAP motion to
compel production of documents, the trial judge
entered a blanket sealing order and prevented
petitioners from using the documents for purposes of
adjudication in contested proceedings. Later two
federal courts determined that there did not exist
good cause for sealing.4 The documents are public
records of the federal court but remained sealed and
ordered unavailable to petitioners in the state court.
No judgment has ever been entered in the case
as to Canon Solutions, Inc. and the trial judge
specifically refused entry of a proposed judgment.5
When ASAP discovered the existence of
section 5 of SB x211 he joined with others to pursue
voting rights and other claims in the federal court on
March 21, 2012.6 On the same day the state court

4

See App D, Request for Judicial Notice Ex 2-5 at App. 34-49.

See Appellant’s Appendix in the underlying appeal, Exhibit
524, BS 13635-13636.
5

6 See Second Amended Complaint in the voting rights case. (1555818 Dkt 8-4 BS 744-860).

18
suspended its local rules and discontinued courtreporting services.
D.

Removal and Proceedings After Removal

In 2015 petitioners filed a petition to remove
the state court proceedings and a writ of habeas
corpus primarily under the Civil Rights Act of 1866.
The petition to remove identified: (1) Case No.
PC43358 , (2) Case No. B261285 (a pending appeal),
and (3) a notice of appeal submitted on February 21,
2015 and filed on February 23, 2015. (15-55818 Dkt
8-8 BS 1865). The petition to remove was filed
following events occurring in administrative
proceeding in the Second District. The clerk of court
refused to file the mandatorily required certificate of
interested parties and entities that would enable
assigned justices in the pending appeal to determine
whether recusal was required. Thereafter, Justice
Roger Boren, in his administrative capacity as the
administrative presiding justice, issued an order to
show cause regarding dismissal of appeal case no.
B261285. (Id. BS 1866, 1872-73 ¶ 15-18). Justice
Boren, along with the California Supreme Court, and
California Judicial Council had already filed an
admission of disqualifying interests in the federal
court on February 20, 2014. (App. 28-33). Justice
Boren’s administrative action was intended to
prohibit compliance with the mandatory filing
requirement.
Upon removal the case was assigned a District
Court case number of 15-cv-01261. The District

19
Court’s remand order did not include the February
23, 2015 notice of appeal. On appeal the Ninth
Circuit assigned a case number of 15-55818. Neither
the District Court nor the Ninth Circuit addressed
removal under the Civil Rights Act of 1866 or the
writ of habeas corpus. The Ninth Circuit also did not
address the partial remand order.7 This court a
petition for a writ of certiorari. (Case No. 16-718).
However this was not an expression of an opinion on
the merits.8
The District Court remanded: (1) Case No.
PC43358 and (2) Case No. B261285. It did not
remand the notice of appeal filed on February 23,
2015 (after the admission of disqualifying interests
had been filed in the federal court). (15-55818 Dkt 82 BS 25-29). Because the notice of appeal was not
remanded the state trial court lacked jurisdiction
(because there was no effective remittitur from the
notice of appeal filed on February 23, 2015).
Justice Boren nevertheless ignored his
admission of disqualifying interests and presumed
jurisdiction over the notice of appeal that had not
been remanded. He assigned an appellate case
number to the February 23, 2015 notice of appeal as
Case No. B262634, assigned this appeal to his
division, and authored the decision in the appeal.
On the written opinion he modified the caption of the
7

8

See 15-55818 Dkt 28 & 29.

See Laborers’ Internt. Un. Of NA Local No. 107 v. Kunco, 472
F.2d 456, 459 n 2 (8th Cir. 1973).

20
case and added the name of “Canon Solutions
America, Inc.” who was not a party to the proceeding
or an assignee of any judgment in the proceeding.
Without public announcement Justice Boren retired
in 2017.
The subsequent enforcement proceedings
initiated by non-party “Canon Solutions America”
against the Tazhibi Family and the appeals at issue
herein are void because there never existed a remand
order that returned jurisdiction as to the February
23, 2015 notice of appeal. Therefore the enforcement
proceedings against the Tazhibi family in trial court
Case No. PC43358 and the appeals listed in the
January 23, 2019 decision authored by Justice
Elwood Liu concerning Case Nos. B284364, B286786,
and B290367) are void. (App. 1-22). Justice Liu’s
January 23, 2019 decision fails to mention Second
District Case No. B261285 that initiated the civil
rights removal. This supports the petitioners’
position that the removed proceeding arose from an
administrative order to show cause and proceeding
created by Justice Boren and a court clerk acting in
a non-judicial capacity where petitioners were
defendants9. (15-55818 Dkt 28 p. 9-33).

9

However, removal and petitions for habeas corpus under the §3 of the
1866 Act do not require defendant status.

21
E.

Competing Cases

After ASAP filed its first appeal in the
state court Justice Candace Cooper, a retired justice
of the Second District, filed an action against the
State Controller seeking an interpretation of
California Constitution Art. VI § 17. (See decision at
15-55818 Dkt 8-6 BS 1158-1191). She was
represented by then Attorney Elwood Liu. The State
Controller was represented by then State Attorney
General Jerry Brown. After the voting rights case
was filed Justice Cooper was unsuccessful in her
attempt to obtain an interpretation of California
Constitution Art. VI § 17 that was inconsistent with
the position taken in the voting rights case filed on
March 21, 2012. Attorney Elwood Liu’s petition for
review filed on behalf of Justice Cooper (ret) was
denied in the California Supreme Court on March 28,
2012. (15-55818 Dkt 8-6 BS 1231-1232). Thereafter,
the majority of justices assigned to ASAP’s first
appeal (and assigned to the former home division of
Justice Cooper) recused themselves. Although there
was no disclosure of the basis of the recusals, there is
an appearance that the justices recognized that they
had an interest in the subject matter and in the
parties to the proceedings.
Attorney Liu went on to defend the County
of Los Angeles in multiple cases by a taxpayer that
challenged judicial compensation.
After the California Supreme Court, the
California Judicial Council, judges/justices, and

22
others filed the admission of disqualifying interests
in the federal court, Attorney Elwood Liu filed a
second case against the State Controller again
seeking an interpretation regarding California
Constitution Article VI § 17 on behalf of a current
justice of the Second District, Gilbert v. Chiang, 227
Cal.App.4th 537 (2014). Attorney General Kamala
Harris, who was now a defendant in the voting rights
case, took no action to seek review of the decision in
the justice’s favor. Harris, like Brown, took no action
to respond to the request for legal opinion from the
Commission of Judicial Performance. On August 25,
2014 members of the voting rights case filed a
request to depublish the case of Gilbert v. Chiang in
the California Supreme Court and they outlined the
relationship of the case to the voting rights case.
(App. 51-69). Shortly thereafter on or about May 22,
2015 now Governor Jerry Brown and defendant in
the voting rights case appointed Attorney Elwood
Liu as an associate justice of the Second District.
After the underlying appeal of the petitioners was
assigned to Division 2, Brown then appointed Justice
Liu as presiding judge of Division 2. Before entry of
the January 23, 2019 judgment Justice Liu was
appointed to the office of administrative justice of the
Second District.

23
__________♦__________
REASONS FOR GRANTING THE WRIT OF
CERTIORARI
I. Certiorari Should Be Granted Because The
Questions Presented Are Exceptionally
Important To The Preservation Of Public
Confidence In The State Court Systems Across
The Nation
The California court system is the largest in
the nation and the Superior Court of the County of
Los Angeles is the largest unified trial court system
in the nation. Implementing Section 5 of SB x211 in
disregard of the Supremacy Clause and federal law
and forcing involuntary waivers of federal law
without an official record, disregarding termination
of jurisdiction after removal to the federal court, and
disregarding federal economic safeguards and limit
on levies against bank accounts to retaliate against
persons who have lawfully asserted grievances, is an
affront to federal jurisdiction and authority. If
California citizens and citizens from other states
cannot rely upon the protection of federal law when
they use a California public courthouse that receives
substantial federal assistance, there is a severe
adverse impact on public confidence in the courts.
The process of maintaining public confidence
must start with the decisionmakers in pending cases
recognizing when they have financial and general

24
interests in the outcome of cases pending before
them. State court judicial officers should strive to
insure proper and equal treatment of federal claims
and consistent with other state courts throughout
the nation. California judges should not be allowed
to secretly attempt to expand judicial immunity
beyond that of judges in other states.
The spectacle of allowing persons with vested
financial and general interests deciding cases
undermines public confidence irrespective of whether
actual bias exists. “[A]ny tribunal permitted by law
to try cases and controversies not only must be
unbiased but also must avoid even the appearance of
bias.” Commonwealth Coatings Corp. v. Cont’l Cas.
Co., 393 U.S. 145, 150 (1968). The conflict of interest
here exists on an institutional level because the
decision makers are acting to impair cases of the
persons properly exercising federal rights in seeking
a monitored special judicial election and objecting to
the involuntary waiver of federal rights caused by
section 5 of SB x211. Because the institutional
challenges may result in fine and penalties under the
California Political Reform Act, there is a risk of a
natural inclination to consider it a duty to minimize
losses by reducing the value of pending state cases,
to label petitioners as “vexatious”, and to penalize
those asserting valid grievances. Compare Ward v.
Monroeville, 409 U.S. 57, 59 (1972).
Granting the petition for writ of certiorari is
necessary because the issues are systemic and

25
direction and guidance of this court is necessary and
proper.
II.
Under Established Precedent Of
This Court If A State Court Continues To
Exercise Jurisdiction In The Absence Of A
Remand Order The Proceedings Are Void And
A State’s Common Law Doctrine Of Law Of The
Case Is Irrelevant
The decisions of this court interpreting 28
U.S.C. § 1446 (d) hold that a state court is barred
from taking any action following removal when there
does not exist a remand order that pertains to the
proceedings. The standard is objectively applied.
There is merely a review of whether or not there
exists a remand order from the federal court with
respect the proceeding at issue. The standard does
not allow an individual judge to “presume” that state
court jurisdiction exists. If there is any doubt it is
for the federal court to decide. In the absence of a
remand order applicable to the proceeding, a
presumption and further acts upon an erroneous
presumption without an actual remand order are
void. See National S.S. Co. v. Tugman (1882) 106
U.S. 118, 122-123, U.S. Const. Art. VI cl. 2,
Supremacy Clause, 28 U.S.C. § 1446 (d). National
S.S. Co. v. Tugman underscores this court’s position
of the clarity of the law on this issue.” Id. at 123. A
state court’s reliance on its common law doctrine of
law of the case is irrelevant to the legal issue of
compliance with 28 U.S.C. § 1446 (d).

26
Since there was no remand order returning
jurisdiction to the state court as to the February 23,
2015 notice of appeal there effectively was a stay of
the proceedings until a remand order concerning this
notice of appeal was transmitted by the federal court.
In order to perpetuate intimidation and harassment
Canon Solutions of America, Inc. initiated void
enforcement proceeding in the state trial court
levying funds from bank accounts of the entire
Tazhibi family essential and to their basic living
needs.
Even under California law the doctrine of law
of the case did not apply to Ali Tazhibi’s terminally
ill wife and his minor children (now college
students). They had never been involved in any
prior appeal and their rights were not affected by
any prior appeal filed by Ali Tazhibi or ASAP Copy
and Print. See Bigbee v. Pacific Tel. & Tel. Co. (1983)
34 Cal.3d 49, 57 (law of the case only applies to those
parties who appealed and whose rights were affected
by that appeal), March v. Barnet, 121 Cal. 419, 424
(Cal. 1898). The wife and children of Ali Tazhibi
independently had a right to use the records that
had been unsealed by two federal courts, to object to
the writ of execution and levies which were not based
on an existing judgment, and to object to the lack of a
remand order from the federal court as defenses.
In light of the extraordinary disregard of
federal jurisdiction and evidence of retaliation
against persons associated with the voting rights

27
case that undermines public confidence, this court
should grant this petition writ of certiorari.
III. Under The Supremacy Clause And
The Civil Rights Act Of 1866 California Courts
Cannot Force Objecting Racial And Language
Minority Court Users To Involuntarily Waive
Federal Rights In Proceedings That Lack An
Official Record
Court users should be notified of the
involuntary waiver caused by uncodified section 5 of
SB x211, that there their case has been assigned to
judge subject to constitutional resignation under
California Constitution Art. VI § 17, and disclosure
and consent forms should be provided at the filing
window or other procedures adopted to comply with
California Constitution Art. VI § 21.10 At least some
temporary process should have been implemented as
proposed in the voting rights case. Instead, the court
suspended all local rules, adopted a “Bring your Own
Court Reporter Policy” without an adequate
procedure as to persons that could not afford the new
policy. A large numbers of valid appeals were
dismissed for failure to present an adequate record
as a result of this policy. In light of the state court’s
receipt of substantial federal financial assistance and
the need to adequately determine federal claims
there was an obligation to provide an official
recording method to preserve a record of the
10 See Rooney v. Vermont Investment Corporation, 10 Cal.3d 351
(Cal. 1973), People v. Tijerina, 1 Cal.3d 41 (Cal. 1969).

28
involuntary waiver of federal law and involuntary
waivers that relate to judicial disqualification or
constitutional judicial resignation.11 Even if the
“Bring your Own Court Reporter Policy” is
nondiscriminatory on its face it is grossly
discriminatory in its operation and effect. See
Griffin v. Illinois (1956) 352 U.S. 12, 17 n 11, Boddie
v Connecticut (1971) 401 U.S. 371.
Under the Civil Rights Act of 1866 all citizen
are to have the same right in every state to the equal
benefit of all laws. However, section 5 of SB x211
puts in place a system in California that does not
provide for equal benefit of all laws. Considering
ERISA and federal tax law, there could not have
been credible doubts that public employment by
judges of state courts of record existed with counties
such as the County of Los Angeles.
Section 5 of SB x211 attempts to give
California a special exception to the Supremacy
Clause and the Civil Rights Act of 1866 and to rewrite an entire body of civil rights law concerning
municipal liability. See Monell v. Dept of Social
Services of City of New York, 436 U.S. 658, 660
(1978). A discriminatory policy can be one of action
or inaction or result from deliberate indifference to
the need for action. City of Canton v. Harris, 489
U.S. 378, 386-388 (1983); Bryan County Comm’rs v.
11 See CJEO, Formal Opinion 2013-002 (2013), Disclosures on
the Record When There is no Court Reporter or Electronic
Recording of the Proceedings, California Supreme Court
Committee on Judicial Ethics Opinion.

29
Brown, 520 U.S. 397, 520 (1997). States cannot
allocate responsibilities to local entities when doing
so would have the effect of undermining federal
rights. See Gomillion v. Lightfoot, 364 U.S. 339, 347
(1960).
Section 5 of SB x2ll requires a surrender of
rights guaranteed by the federal and state
constitution, and shields a judge subject to
constitutional resignation from the mandatory and
constitutionally required disclosures and deprives
the court user of the opportunity withhold consent.
Racial and language minorities of counties that are
already governed under federal decrees for
intentional discrimination in voting, have the right
under the Section 1 and 3 Civil Rights Act of 1866 to
refuse to consent to proceedings when they have a
good faith belief and position that the person
conducting the proceeding is subject to constitutional
resignation and is part of a process that has deprive
their communities of a judiciary that reflects the true
diversity of the population. Petitioners had a right to
withhold consent to proceedings that were violating
their federal rights and to be free from retaliation for
exercising those rights.
This court should grant the petition for a writ
of certiorari because the California Supreme Court
filed an admission in the federal court that it has
disqualifying interests. Its Committee on Judicial
Ethics has rendered an opinion specifying
circumstances when automatic judicial resignation
occurs and the opinion involves a situation that is

30
not as direct and clear as the instant case.12 In
essence, the highest court of the State of California
has deferred decision to this court. This court should
determine the issue of whether section 5 of SB x211
is constitutional. Alternatively, in conjunction with
the petition to be filed in the voting rights case, this
court should assign a three-judge court outside the
State of California.
IV. The Refusal Of Justice Elwood Liu
And Other Panel Members Of The California
Court Of Appeal For The Second Appellate
District To Recuse Conflicts With Established
Due Process Precedent Of This Court
Under the Due Process Clause recusal is
required even when the judge does not have a direct
or positive interest in a case.13 A fundamental factor

See CJEO Formal Opinion 2017-011, Judicial Service On A
Nonprofit Charter School Board, California Supreme Court
Committee on Judicial Ethics Opinion p. 14-16.
12

See Gibson v. Berryhill, 411 U.S. 564, 579 (1973) (due process
violated when the decision makers had an indirect general
interest of sufficient substance that was in competition with the
parties); Aetna Life Insurance Company v. Lavoie, 475 U.S. 813
(1986)(due process violated by participation of a judge in a case
when he had an indirect interest in the outcome); Caperton v. A.
T. Massey Coal Co., Inc. 556 U.S. 868, 884 (2009) (due process
violated due to the serious risk of actual bias based on an
objective perception that a person with a personal stake in the
case had a significant influence in placing the judge on the
case); Ward supra (due process violated because the mayor had
13

31
is whether there is a serious risk of actual bias based
on objective and reasonable perceptions. Caperton at
884. Both direct and indirect financial interests and
general interest in the outcome of petitioners’ case
required recusal. The author of the decision, Justice
Elwood Liu, had a heightened risk of actual bias and
direct and indirect financial and general interest in
the outcome. In addition, a defendant with a
personal stake in the pending voting rights case
(then Governor Jerry Brown), had direct influence in
placing Justice Liu in his position in the Second
District Division 2 in order to render a decision
against one of the lead plaintiffs in the federal voting
rights case.
The disqualifying interests at issue are
significant because it originates from the institution
and decision makers. The requirement of an
impartial decisionmaker transcends the concern of
the likelihood of error. United Retail & Wholesale
Emp. v. Yahn & McDonnell, 787 F.2d 128, 138
(1986). Recusal was required because petitioners
had a right to an impartial tribunal.14

institutional interest in adjudication of traffic fines which
contributed to the city’s finances).
See Gibson supra, Ward supra, In re Murchison, 349 U.S.
133, 136 (1955) (“A fair trial in a fair tribunal is a basic
requirement of due process….To this end no man can be a judge
in his own case and no man is permitted to try cases where he
has an interest in the outcome.”)
14

32
There is no doubt of direct and indirect
competition between the petitioners and justices of
the Second District. This was plainly evident when
members of the voting rights case appeared on the
docket in the California Supreme Court opposing the
legal issues advanced by Justice Gilbert (current
justice of the Second District) represented by
Attorney Elwood Liu (former justice of the Second
District) on matters pertinent to the voting rights
case. Petitioners pointed out that the decision
makers had financial interests in the pending voting
rights case and that the legal positions advanced by
Attorney Elwood Liu was an attempt to modify the
long-standing interpretation of the state
constitution. Petitioners argued that if there was to
be modification of the constitution it should be
decided by all voters and through proper procedures
to modify the constitution. The panel deciding the
case of Gilbert v. Chiang as advanced by Attorney
Elwood Liu had vested financial interest in the
decision and in disregarding published voting
materials that had been provided to the electorate.
They further argued that the “friendly offer of
possible work after retirement” by then Governor
Jerry Brown (a college friend of Justice Gilbert) did
not present a justiciable controversy because there
was no real plan to retire or actual retirement at
issue. (App. 54, 58, 62-65).
All decision makers on the panel of judges
rendering the January 23, 2019 decision at issue in
this petition involved former judges of the Superior
Court of the County of Los Angeles, would be

33
subjected to the declaration of vacancy of judicial
office and the requested monitored special judicial
election, public disclosure of the opinions rendered by
the California Commission on Judicial Performance,
and would be impacted by potential fines and
penalties under the California Political Reform Act
sought in the voting rights case. “Under a realistic
appraisal of psychological tendencies and human
weakness”, the interest at stake “poses such a risk of
actual bias or prejudgment that the practice must be
forbidden if the guarantee of due process is to be
adequately implemented”. Withrow v. Larkin, 421
U.S. 35, 47 (1975).
There is not only a direct financial and general
interest in impairing the value of the federal case
and the implementation of the relief sought therein,
but also there is an interest in labeling petitioners as
“vexatious”, so that their viewpoints and grievances
concerning institutional discrimination cannot
reasonably proceed during an important public
debate and constitutional contest in violation of their
rights under the First Amendment.
A.
Heightened Disqualifying Interests
Of Justice Elwood Liu
Justice Liu had heightened disqualifying
interest as a former attorney that represented
current and former justice justices of the Second
District on matters in controversy in the instant
appeal. He had more that a de minimis financial and
general interest that could be substantially affected

34
by the outcome of the decision he authored. To
determine that section 5 of SB x211 was
unconstitutional, would undermine the legal
arguments he and his law firm made on behalf of
clients; could subject himself and former clients to
potential remedies sought in the voting rights case;
and he would have to disregard the ethical duty that
he and his former firm have concerning the interest
of their clients. Serving as an attorney in matters in
controversy were disqualifying. (See Model Code of
Judicial Conduct, Canon, 2, Rule 2.11 (A)(2)(c) &
(A)(6)(a)). The Model Code of Judicial Conduct
Canon refers to “matters” rather than “cases”. A
judge is therefore disqualified not only when he
appears on behalf of a party but also when the
litigation is any way related to the former
representation of a client. The legal representation
of Justice Liu as a previous attorney for the County
of Los Angeles, Justice Candace Cooper (ret), and
current Justice Arthur Gilbert where he directly or
indirectly addressed matters in controversy
concerning California Constitution Art VI § 17,
Senate Bill x 211, and the constitutional prohibition
against public employment of state court judges of
the courts of record by a county are matters at issue
in the instant appeal and matters in controversy.
Attorney General Jerry Brown advanced the
same interpretation of California Constitution Art.
VI § 17 as the plaintiffs in the voting rights case in
the case of Candace Cooper v. Controller of the State
of California and he prevailed on behalf of the state
by judgment dated December 10, 2010. (No. 15-

35
55818 Dkt 806 BS 1158-1191). Then Governor Jerry
Brown and Attorney General Kamala Harris refused
to respond to the requests for legal opinions of the
Commission on Judicial Performance. When the
legal landscape required response to the civil rights
and voting rights position of racial and language
minorities rather than artificial focus of the legal
issue as “about judicial compensation”, there was a
failure to advance the long-standing interpretation of
California Constitution Art. VI § 17.
When the true historical background of the
issue of public employment and office of the state
judges of the courts of record was raised and the
direct link was drawn to federal decrees and
discrimination in voting Attorney General Kamala
Harris was called upon to act and she refused to do
so. She also did not seek review in the California
Supreme Court on the renewed claims of Justice
Gilbert who was unhappy about the decision in the
case of Justice Candace Cooper.
Elwood Liu (then Justice Gilbert’s attorney)
was then appointed as a justice in the Second
District by Governor Brown. Brown was a defendant
in the voting rights case in his official and individual
capacity. Brown had a personal stake in the outcome
of the matters in controversy and had direct
influence in appointing Elwood Liu to the position of
justice in the Second District and to Division 2 where
ASAP’s appeal was pending.. Unlike Caperton
Governor Brown did not contribute to an election
campaign of Justice Liu but he directly placed Judge

36
Liu in a position to rule on the state case of one of
the lead plaintiffs in the voting rights case. Justice
Liu’s personal risk of imposition of penalties in the
voting rights case based on his prior acceptance of
public employment and office, the risk of his peers
and clients, combined with an appointment to the
Second District that would allow him to act as a
decision maker on significant matters in controversy
that affect his personal financial and general
interests. This offered “a possible temptation to….
Not hold the balance nice, clear and true.” Tumey v.
Ohio, 273 U.S. 510, 532 (1927). There were serious,
objective risks of actual bias that required recusal.
B.

Financial Interests

The justices and judges located in the County
of Los Angeles have a direct financial interest in
voting rights case and in the issues raised in the
state court appeal. Many are the source of the
claimed civil rights and constitutional injury and
should not been in a position to directly or indirectly
rule on matters that involved their personal general
interests.
The Due Process Clause precludes a judge
with a “direct, personal, substantial, pecuniary
interest in reaching a conclusion against” a party.
See Tumey at 523. In Tumey the mayor of a village
had the authority to sit as a judge and try those
accused of violating state law prohibiting possession
of alcoholic beverages. He received a salary
supplement for performing these duties and the

37
funds for that compensation derived from the fines
assessed. The Due Process Clause required
disqualification not only because of the direct
pecuniary interest but also due to the possible motive
to convict and to graduate the fine to help the
financial needs of the village. Id. at 535. In Ward
the mayor received no money and the fines assessed
went into the town’s general fund. Nevertheless,
this court held that there was a possible temptation
to make the mayor partisan in making high
contributions to the village’s finances. Id. at 60.
C.
Direct

Financial Interests That Are Not

The financial stake which requires recusal
does not need to be direct or positive as in the case of
Tumey. See Gibson at 579. In Gibson a state
administrative board composed of optometrists had a
pecuniary interest of sufficient substance so that it
was determined that it could not preside over a
hearing against competing optometrists. In part it
was alleged in Gibson that “the aim of the Board was
to revoke the license of all optometrists in the State
who were employed by business corporations”, “that
the Board of Optometry was composed solely of
optometrists in private practice”, and that “success
in the Board’s effort would possibly redound to the
personal benefit of members of the Board.” Id. at
578. Similarly, petitioners contend there is direct
competition between members of the voting rights
case and judge/justices that could be subject to a
declaration of vacancy of judicial office and the

38
requested monitored special judicial election. The
indirect financial interests were sufficient for
disqualification. See Gibson at 579.
D.

General Interests

In both Aetna and Caperton this Court further
clarified the reach of the Due Process Clause
regarding a judge’s interest in a case. In Aetna a
justice cast the deciding vote on the Alabama
Supreme Court in a bad faith action against an
insurance company when at the time he was a lead
plaintiff in a similar case. The issue was not
whether the judge was influenced but rather if
sitting on the case “would offer a possible temptation
to the average…judge to…lead him not to hold the
balance nice, clear and true.” Id. at 825. The
concurring opinion of Justice Brennan indicates that
“an interest is sufficiently ‘direct’ if the outcome of
the challenged proceeding substantially advances the
judge’s opportunity to attain some desired goal even
it that goal is not actually attained in that
proceedings. “ Aetna at 830. This Court held it was
the justice’s participation in the case that violated
due process and that the court did not need to
determine if a particular judge was “influenced”. Id.
at 825. The Due Process Clause “may sometimes bar
trial by judges who have no actual bias and who
would do their very best to weigh the scales of justice
equally between contending parties. But to perform
its high function in the best way, ‘justice must satisfy
the appearance of justice.’” In re Murchison at 136.

39
In Caperton this court further delineated the
objective standard for recusal under the Due Process
Clause holding that there is a serious risk of actual
bias when a person with a personal stake in a
particular case has significant influence in placing
the judge on the case by raising funds or directing
the judge’s election campaign when a case was
pending or imminent.
Governor Brown had a personal stake in the
state court case of lead plaintiffs in the voting rights
case because those persons were challenging Section
5 of x211 enacted while he was Attorney General and
they were claiming a constitutional vacancy of
judicial office had occurred requiring a judicial
election. Brown exercised significant influence over
the interim appointment of Elwood Liu to fill the
remaining term of Justice Roger Boren (ret.) in
Division Two. Although there existed other
vacancies in the Second District Brown directly
placed Elwood Liu in Division 2 where petitioners’
case was pending so that Elwood Liu would be in a
position to influence and rule on the pending case
that could favorably reduce Brown liability exposure
in the voting rights case. Also, Brown’s interim
appointment placed Elwood Liu in a position to
influence a case that impacted challenges to judicial
office (that directly effected the interests of himself,
former clients, and current and former justices of the
Second District).
In the determination of whether there exists a
serious risk of actual bias Caperton requires an

40
evaluation of the strong and inherent human nature
as this Court confronted in Tumey and Ward. See
Caperton at 882-884. The risk of actual bias was
substantial. Petitioners’ legal position that there
should be a declaration of constitutional vacancies of
judicial office and procedures established for fair
judicial elections and that Section 5 of x211 is
unconstitutional, directly and indirectly impacted
the general and financial interest of each decision
maker. Petitioners and those that claim they have
been harmed by involuntary waivers of federal rights
and discriminatory vote dilution methods are
demanding an open door, remedies under the Voting
Rights Act and the Civil Rights Act of 1866, and
constitutional accountability. Justices and judges
with general and financial interests in the voting
rights case, the issues on appeal, or who were
directly placed on the appeal by a persons with an
imminent and pending interest, violated the Due
Process Clause.

41
__________♦__________
CONCLUSION
For the above and foregoing reasons,
Petitioners respectfully request issuance of a writ of
certiorari to the California Court of Appeal, Second
Appellate District.
Dated: August 8, 2019
Respectfully Submitted,
Nina R. Ringgold
Counsel of Record
Law Offices of Nina R. Ringgold
17901 Malden St.
Northridge, CA 91325
Telephone: (818) 773-2409

APPENDIX A
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

Court of Appeal - Second Dist.
FILED
Electronically
Jan 23, 2019
B284364 Daniel P. Potter, Clerk
B286786 JHatter, Deputy Clerk
B290367
(Los Angeles County
Super. Ct. No. PC043358
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO
ASAP COPY AND PRINT, et al.,
Plaintiffs and Appellants,
v.
CANON SOLUTIONS AMERICA, INC.,
Defendant and Respondent.

App.2

APPEAL from orders of the Superior Court of
Los Angeles County. Stephen Pfahler and Franz E.
Miller, Judges. Affirmed.
Nina Ringgold for Plaintiffs and Appellants.
Dorsey & Whitney, Kent J. Schmidt and Lynnda A.
McGlinn for Defendant and Respondent.
ASAP Copy and Print filed the initial complaint
in this action a decade ago. The complaint alleged
misrepresentations and breach of contract concerning
services provided in connection with the lease of a
photocopier.1 Respondent Canon Solutions America,
Inc. (CSA) is the successor in interest to Canon
--------------------------1
ASAP Copy and Print is a dba belonging
to Ali Tazhibi, the proprietor of the business. Tazhibi’s
wife, Azita Daryaram, and two minor children are also
identified as appellants in this appeal. Daryaram and
the minors were not parties to the underlying action.
However, as discussed further below, Tazhibi filed a
motion in the trial court on behalf of the minors,
seeking release of funds in bank accounts that were
the subject of a writ of execution. Daryaram also
submitted a claim of exemption for funds in such
accounts. No party has raised an issue concerning the
standing of Daryaram or the children to participate in
this appeal, and we therefore do not consider that
issue further. We refer to the appellants collectively as
“ASAP.”

App.3

Business Solutions, Inc. (CBS), a defendant in
the underlying action.2
Including the three appeals at issue here, ASAP
has pursued nine appeals in this case.3 The first two
appeals affirmed the trial court’s dismissal of ASAP’s
claims following successful demurrers. (ASAP Copy &
Print v. Canon Bus. Sols., Inc. (June 4, 2012) Nos.
B224295 & B225702, 2012, Cal.App.Unpub. LEXIS
4209 (ASAP I).) The other appeals, including this one,
have concerned postjudgment orders related to awards
of sanctions and/or attorney fees.4
--------------------------2
ASAP claims that CSA is not actually a
party to the case. That claim is discussed below.
3
This does not include opinions in related
federal litigation that ASAP pursued. We ordered the
three appeals addressed in this opinion (Nos.
B284364, B286786, and B290367) consolidated for
purposes of argument and decision.
4
In addition to ASAP I, the prior appeals
have resulted in unpublished decisions: (1) ASAP Copy
& Print v. Canon Bus. Sols., Inc. (May 1, 2013) No.
B232801, 2013 Cal.App.Unpub. LEXIS 3116 (ASAP
II); (2) ASAP Copy & Print v. Canon Bus. Sols., Inc.
(Mar. 4, 2014) No. B238144, 2014 Cal.App.Unpub.
LEXIS 1557 (ASAP III); (3) ASAP Copy & Print v.
Canon Bus. Solutions, Inc. (June 23, 2014) No.
B249588, 2014 Cal.App.Unpub. LEXIS 4388 (ASAP
IV); (4) ASAP Copy & Print v. Canon Solutions Am.,
Inc. (Nov. 28, 2016) No. B262634, 2016

App.4

The appeals at issue here concern various court
orders related to CSA’s attempt to execute against
bank accounts at Wells Fargo Bank in partial
satisfaction of previously awarded costs and attorney
fees, and an order the trial court issued on September
8, 2017, awarding CSA additional attorney fees
related to ASAP’s appeal in ASAP V. In light of the
previous opinions from this court discussing the
factual background in detail, we discuss only the facts
relevant to the orders at issue in this appeal.
BACKGROUND
1.
The January 4, 2017 Order
CSA obtained a writ of execution dated September 7,
2016, in the amount of $207,796.98 against Tazhibi as
the judgment debtor. The writ was based on trial court
orders dated June 8, 2010, May 10, 2013, and
February 11, 2015, awarding costs and attorney fees
against Tazhibi.
CSA sought to collect by garnishing accounts
that Tazhibi held at Wells Fargo Bank (the Wells
Fargo Accounts). Tazhibi and Daryaram filed claims of
exemption, which CSA opposed in a Motion for an
Order Determining the Claim of Exemption.
--------------------------Cal.App.Unpub. LEXIS 8392 (ASAP V). Pursuant to
California Rules of Court, rule 8.1115(b)(1), we cite
these unpublished opinions for their relevance under
the doctrines of law of the case and res judicata.

App.5

ASAP thereafter filed motions for (1) an order
for “immediate release of funds of minors” and (2) an
order to quash and recall any writs of execution. The
motion for return of minor’s funds claimed that the
sheriff had withdrawn money from accounts
established for the support of the minor children and
that CSA had not timely opposed their claims of
exemption. The motion to quash asserted various
arguments, including that the writ of execution
improperly combined amounts awarded through three
separate minute orders; unsigned minute orders were
not judgments; and CSA was not a party to the action.
On January 4, 2017, the trial court issued an
order (the January 4, 2017 Order) denying ASAP’s
motions but granting in part the claimed exemptions.
The court ruled that CSA had standing to oppose the
exemptions because it (1) was the successor in interest
to named defendant CBS; (2) was the entity identified
on the writ of execution; (3) was the entity to which
attorney fees were previously awarded; and (4) had
been participating in the litigation for over four years.
The court also ruled that the writ of execution had
been properly issued.
With respect to the claimed exemptions, the
court found that Tazhibi failed to establish that any of
the funds in the Wells Fargo Accounts belonged solely
to the children, and failed to support his claim that the
accounts should be exempt because he and his family
were living on borrowed funds. Nevertheless, the court
directed the release of only 60 percent of the funds in

App.6

the Wells Fargo Accounts pursuant to the writ of
execution. The court’s order stated that “[t]he levying
officer is directed to release sixty percent (60%) of the
monies held in the subject accounts to the judgment
debtor.”5
ASAP filed a notice of appeal from the January
4, 2017 Order on January 23, 2017. That appeal was
subsequently dismissed on July 18, 2017, following
ASAP’s default.
2.
The July 3, 2017 Order
CSA filed an ex parte motion requesting a
correction to the January 4, 2017 Order. CSA’s motion
sought to change the statement in the January 4, 2017
Order that 60 percent of the funds in the Wells Fargo
Accounts should be released to the “judgment debtor”
to state that the funds should be released to the
“judgment creditor.” The trial court granted that
motion on February 3, 2017 (the February 3, 2017
Order) and ordered a nunc pro tunc correction to its
January 4, 2017 Order. The trial court subsequently
stayed the February 3, 2017 Order pending a noticed
hearing on CSA’s motion.
ASAP then filed a noticed motion to vacate the
February 3, 2107 Order, which the trial court denied
on July 3, 2017 (the July 3, 2017 Order). Pursuant to
--------------------------5
On January 23, 2017, the trial court issued a
nunc pro tunc order correcting its January 4, 2017
Order to include the correct address for ASAP’s
counsel.

App.7

Code of Civil Procedure section 917.1, subdivision (a),
the court rejected ASAP’s argument that the action
was stayed pending appeal because the appealed order
(i.e., the January 4, 2017 Order) concerned the
payment of money and ASAP had not posted an
undertaking.6 The court found that the February 3,
2017 Order was a proper nunc pro tunc modification of
the January 4, 2017 Order because it merely corrected
a clerical error.
ASAP appealed from the July 3, 2017 Order on
August 3, 2017.
3.
The September 8, 2017 Order
On March 13, 2017, CSA filed a motion for the
attorney fees it had incurred in defending ASAP’s
appeal in ASAP V. The trial court granted that motion
on September 8, 2017, and awarded $9,811.12 in
attorney fees. The court rejected ASAP’s arguments
challenging the basis for the award, noting that “[t]his
court and the Court of Appeal have already
determined that attorney fees are properly awarded to
the prevailing party in this action by awarding [the
moving party] such fees in the underlying case and on
prior appeals where it was the prevailing party.” The
court noted that this court had “expressly awarded”
costs, including attorney fees, in ASAP V. (See ASAP
V, supra, 2016 Cal.App.Unpub. LEXIS 8392, at *8–
*9.)
--------------------------6
Subsequent undesignated statutory references
are to the Code of Civil Procedure.

App.8

CSA served a notice of the September 8, Order on
September 12, 2017. ASAP filed a timely notice of
appeal from that order on November 13, 2017.
4.
The Trial Court’s 2018 Rulings
ASAP filed a motion to vacate the September 8, 2017
Order awarding attorney fees as well as “other alleged
orders and judgments based on lack of fundamental
jurisdiction or excess of jurisdiction, violation of the
statutory stay, and based on equitable grounds.” The
trial court denied that motion on January 4, 2018 (the
January 4, 2018 Order).
Meanwhile, CSA sought a further correction to
the trial court’s February 3, 2017 Order, requesting
that the court state the specific amount of funds to be
released to CSA from the Wells Fargo Accounts rather
than a percentage of the funds in the accounts. CSA’s
motion, filed December 27, 2017, explained that Wells
Fargo would not release any funds from the accounts
without an order stating the actual amount of money
to be released rather than a percentage of the funds
contained in the accounts.
The trial court granted CSA’s motion on March
26, 2018 (the March 26, 2018 Order). The court found
that the February 3, 2017 Order “contains a clerical,
rather than a substantive error . . . . The clerical error
is that Wells Fargo is ordered to release ‘sixty percent’
of the levied funds to the moving party rather than the
specific dollar amount that ‘sixty percent’ represents,
and Wells Fargo refuses to release the levied funds

App.9

without a specific dollar amount being set forth in the
order.”
In the same order, the trial court denied an ex
parte motion by ASAP to vacate the January 4, 2018
Order on the ground that the court served its order on
the wrong address for ASAP’s counsel. The court found
that the motion “has no bearing on the ruling on this
motion.” The court stated that ASAP’s counsel “did not
file a Notice of Change of Address until October 2017,
well after the orders which are the subject of [this]
motion were issued. The Court also notes that while
counsel for the responding parties filed and served a
Notice of Change of Address in 2017, the papers filed
in opposition to the instant motion and the ex parte
application itself contain counsel for responding
parties purported former address.”
CSA served a final order granting its motion for
a nunc pro tunc correction to the February 3, 2017
Order on May 11, 2018. That order directed release of
funds from the Wells Fargo Accounts consisting of (1)
$610.24 from the account held jointly with Daryaram;
(2) $1,686.60 from the account held jointly with one of
the minors; and (3) $1,394.68 from the account held
jointly with the other minor. Thus, the amount in
controversy in this appeal is $3,691.52, the sum of
these three figures.
ASAP filed a timely notice of appeal on May 25,
2018.

App.10

DISCUSSION
1.
This Court Will Not Reconsider Matters
Decided in Prior Appeals
ASAP makes a number of arguments for reversal of
the trial court’s various orders that this court has
previously considered and rejected. ASAP claims that
(1) the trial court and this court do not have
jurisdiction because the case was never remanded
from federal court following a prior removal; (2) there
is a “lack of fundamental jurisdiction” because ASAP
did not consent to claimed dual public employment by
judicial officers; (3) a protective order “sealing”
documents prevented ASAP from presenting
dispositive evidence; and (4) there was a lack of an
impartial tribunal.
This court has already rejected variations of the
same arguments in prior appeals. (See ASAP I, supra,
2012 Cal.App.Unpub. LEXIS 4209, at *51–*57, *72,
*90; ASAP III, supra, 2014 Cal.App.Unpub. LEXIS
1557, at *9; ASAP V, supra, 2016 Cal.App.Unpub.
LEXIS 8392, at *3–*6.) These prior rulings constitute
the law of the case, and ASAP has provided no legal or
equitable ground to disregard them. (See Gore v.
Bingaman (1942) 20 Cal.2d 118, 121 [“Where a
question of law once determined is sought to be
relitigated upon a second appeal to the same appellate
court it is clearly established that the first
determination is the law of the case and will not be reexamined in the absence of unusual circumstances
leading to injustice or unfairness even though the

App.11

issue sought to be raised involves the jurisdiction of
the court on the prior appeal”]; Yu v. Signet
Bank/Virginia (2002) 103 Cal.App.4th 298, 312
[“Litigants are not free to continually reinvent their
position on legal issues that have been resolved
against them by an appellate court”].)7
2.
Appellants Waived the Right to Appeal
Issues Decided in the January 4, 2017 Order
ASAP makes various arguments challenging the trial
court’s January 4, 2017 Order. Among other things,
ASAP claims that there were various procedural
problems with CSA’s opposition to the claimed
exemptions; that the writ could not be executed
against the minors’ funds; and that the trial court’s
order was erroneous because it permitted a levy of 100
percent of Tazhibi’s earnings.8
ASAP waived these arguments by failing to pursue its
appeal from the January 4, 2017 Order. ASAP filed a
--------------------------7
The requests for judicial notice filed by ASAP
on August 20, 2018, and August 24, 2018 relate to
issues that have already been decided in earlier
appeals. We therefore deny those requests as
irrelevant to this appeal.
8
As discussed above, in ordering the release of
the funds the trial court also rejected ASAP’s
argument that CSA did not have standing to oppose
the claimed exemptions. The trial court found that
CSA is the successor in interest to Canon Business
Solutions-West, Inc. and CBS.

App.12

notice of appeal on January 23, 2017, but, as
mentioned, its appeal was dismissed after it failed to
file an opening brief.9
An appealable order becomes final when an
appeal is exhausted or the time to appeal has lapsed.
Issues determined in a prior appealable order are res
judicata if no timely appeal is taken. (In re Matthew
C. (1993) 6 Cal.4th 386, 393; In re Cicely
L. (1994) 28 Cal.App.4th 1697, 1705–1706.) This court
does not have jurisdiction to review issues decided in a
prior appealable order once the right to appeal that
prior order has expired. (§ 906; In re Baycal Cases I &
II (2011) 51 Cal.4th 751, 761, fn. 8.)
The trial court’s January 4, 2017 Order was
appealable under section 904.1, subdivision (a)(2).
ASAP failed to pursue its appeal from that order. This
court therefore does not have jurisdiction to review the
issues decided in the trial court’s January 4, 2017
Order.
3.
The Trial Court’s July 3, 2017 Order Was
Not Erroneous
ASAP argues that the trial court erred in several
respects in its July 3, 2017 Order denying ASAP’s
motion to vacate the court’s prior February 3, 2017
--------------------------9
ASAP’s next-filed notice of appeal on August 3,
2017, was more than 180 days after entry of the trial
court’s January 4, 2017 Order. It therefore was not
timely with respect to that order. (See Cal. Rules of
Court, rule 8.104(a)(1).)

App.13

Order. ASAP argues that (1) the trial court did not
have jurisdiction to enter the July 3, 2017 Order
because proceedings in the trial court were stayed
pending ASAP’s appeal of the January 4, 2017 Order;
(2) the February 3, 2017 Order should not have issued
on an ex parte basis; and (3) the amendment the trial
court ordered was substantive and the trial court
therefore should not have adopted it as a nunc pro
tunc correction of a prior clerical mistake. We find no
error in the trial court’s ruling.
First, ASAP’s appeal of the January 4, 2017
Order did not stay trial court proceedings concerning
CSA’s attempts to collect its costs and attorney fees.
The January 4, 2017 Order addressed CSA’s writ of
execution seeking collection of money in the Wells
Fargo Accounts and the various exemption claims
concerning those accounts. The July 3, 2017 Order
concerned a nunc pro tunc amendment to that order.
Under section 917.1, subdivision (a)(1),
enforcement of an order for the payment of money is
not stayed pending appeal unless an undertaking is
made. An order on claimed exemptions is treated in
the same manner. Section 703.610, subdivision (c)
provides that a levying officer shall treat an appeal of
a “determination of a claim of exemption . . . in
accordance with the provisions governing enforcement
and stay of enforcement of money judgments pending
appeal.” Thus, neither the trial court’s January 4,
2017 Order nor its July 3, 2017 Order were stayed in
the absence of an undertaking.

App.14

ASAP does not claim that it posted an
undertaking, and there is no indication in the record
that it did so. Thus, its appeal did not deprive the trial
court of jurisdiction to enter its July 3, 2017 Order.
Second, ASAP has not identified any error in
the trial court’s decision to correct its January 4, 2017
Order following an ex parte motion. Correction of a
clerical error in a prior order may be made without
notice and on the court’s own motion. (Wilson v.
Wilson (1948) 88 Cal.App.2d 382, 384.) Nor has ASAP
identified any prejudice from the ex parte procedure.
Following a subsequent ex parte application by ASAP,
the trial court stayed its February 3, 2017 Order to
permit hearing on a noticed motion.
Third, ASAP’s argument that the amendment
the trial court ordered was substantive rather than
clerical is unpersuasive. The trial court explained that
it intended in its original order to direct release of
funds in the subject accounts to the judgment creditor
rather than the judgment debtor. The context of the
court’s January 4, 2017 Order supports that
explanation. Correction of such a mistake in wording
to give effect to the court’s original intention may be
made effective as of the date of the original order.
(Estate of Careaga (1964) 61 Cal.2d 471, 474
(Careaga).)
4.
The Trial Court Did Not Err in its
September 8, 2017 Award of Attorney Fees
ASAP argues that the trial court improperly
awarded CSA attorney fees because CSA did not have

App.15

an interest in the contract creating the right to
attorney fees. We reject that argument on several
grounds.
First, ASAP forfeited the argument. As
discussed above, in its January 4, 2017 Order the trial
court found that CSA is the successor in interest to
named defendant CBS. ASAP failed to pursue its
appeal from that order. In ASAP I, this court decided
that CBS is entitled to attorney fees under the
relevant contract. (See ASAP I, supra, 2012
Cal.App.Unpub. LEXIS 4209, at *79–
*88.) As CBS’s successor in interest, CSA is also
entitled to contractual attorney fees.
Second, as the trial court correctly concluded, it
was far too late even in January 2017 for ASAP to
raise this standing argument, as CSA had participated
in the litigation for years.
Indeed, in prior appeals this court has already
upheld attorney fees awards in favor of CSA. (See
ASAP IV, supra, 2014 Cal.App.Unpub. LEXIS 4388, at
*1; ASAP V, supra, 2016 Cal.App.Unpub. LEXIS 8392,
at *1, *8–*9.) This court’s opinion in ASAP V expressly
noted that CSA is the successor in interest to CBS and
awarded attorney fees to CSA. (ASAP V, at *1–*3,
*8–*9.) These findings are law of the case.
Citing California Rules of Court, rule
8.278(c)(2), ASAP also claims that CSA is not entitled
to its attorney fees because it did not file a
memorandum of costs following remand from this
court pursuant to California Rules of Court, rule

App.16

3.1700. But CSA did file a timely motion for attorney
fees following remand. That is sufficient under
California Rules of Court, rule 8.278(d)(2).
California Rules of Court, rule 8.278(d)(2) refers
to rule 3.1702 for the procedure for claiming attorney
fees on appeal. That rule provides that a motion for
fees on appeal based upon a contract “must be served
and filed within the time for serving and filing the
memorandum of costs under rule 8.278(c)(1).” (Cal.
Rules of Court, rule 3.1702(c)(1).) CSA filed its motion
within 40 days after issuance of the remittitur in
compliance with the time requirement in rule
8.278(c)(1). Its motion therefore was timely and
procedurally proper.
ASAP raises no challenge to the reasonableness
of the attorney fees that the trial court awarded other
than the general complaint that CSA made redactions
to the bills that it submitted in support of its fee
request. We rejected a similar argument in ASAP V.
(See ASAP V, supra, 2016 Cal.App.Unpub. LEXIS
8392, at *8.) The bills that CSA submitted sufficiently
supported the claimed fees. We find no error in the
trial court’s award of the amount of fees that CSA
requested based upon the record.
5.
ASAP Has Identified No Prejudicial Error
in the Trial Court’s January 4, 2018 Order or
March 26, 2018 Order
ASAP claims that the trial court’s January 4,
2018 Order was erroneous because (1) the trial court
lacked jurisdiction due to the failure to disclose an

App.17

alleged constitutionally required disqualification of the
judge; (2) CSA did not have standing to pursue an
attorney fees award; and (3) CSA failed to provide
ASAP with a copy of its proposed order as required
under California Rules of Court, rule 3.1312.10 We
reject the arguments.
ASAP’s jurisdictional and standing challenges
to the January 4, 2018 Order rehash arguments that
this court has previously denied, and we reject them
for the reasons discussed above.11 With respect to the
--------------------------10
The record does not contain any document
showing service of the January 4, 2018 Order by a
party, and, as discussed below, the trial court
apparently served the order on the wrong address.
ASAP therefore had 180 days from the date of the
order to file a notice of appeal. (See Moghaddam v.
Bone (2006) 142 Cal.App.4th 283, 288 [“Notice of an
appealable judgment or order mailed to an incorrect
address is not sufficient to constitute legal notice”].) Its
notice of appeal filed on May 25, 2018, was therefore
timely as to the January 4, 2018 Order.
11
With respect to its jurisdictional argument,
ASAP cites an opinion by the California Supreme
Court Committee on Judicial Ethics issued on May 2,
2017. (CJEO Formal Opinion 2017-011
<http://www.JudicialEthicsOpinions.ca/gov>.) That
opinion concerns potential problems with judicial
officers serving as board members for charter schools,
because such schools might be considered public. The

App.18

third argument, even if CSA did fail to serve a
proposed order concerning its motion for attorney fees,
ASAP identifies no prejudice from that failure. ASAP
does not identify any discrepancy between the ruling
the trial court actually made and the order that it
issued, much less any basis to conclude that the
outcome would have been different if ASAP had been
given an opportunity to object to a proposed order. In
the absence of any showing of prejudice, ASAP’s
argument provides no ground to reverse the trial
court’s ruling. (§ 475; Cal. Const., art. VI, § 13.)
ASAP similarly fails to identify any prejudice in the
trial court’s March 26, 2018 Order denying ASAP’s ex
parte application to vacate the January 4, 2018 Order
on the ground that the order was not properly served
on ASAP. ASAP claims that it has been prejudiced by
wrongful levies and the threat of such levies. That
claim concerns ASAP’s complaints about the propriety
of other trial court orders. It has nothing to do with
--------------------------opinion advises that judges not serve on such boards
to avoid the potential of automatic resignation due to
holding a “governmental position” or a “public office.”
The relevance of this opinion to ASAP’s argument is
unclear. In any event, the CJEO opinion does not
constitute a change in the “controlling rules of law”
that might preclude treating this court’s prior rulings
rejecting ASAP’s jurisdictional arguments as law of
the case. (See People v. Stanley (1995) 10 Cal.4th 764,
787.)

App.19

any delay in its receipt of the January 4, 2018 Order
due to faulty service. Absent a showing of prejudice,
there is no ground for reversal.
6.
The Trial Court’s March 26, 2018 Order
Was a Proper Nunc Pro Tunc Modification of a
Prior Order Intended to Reflect the Trial
Court’s Original Intention
ASAP argues that the trial court’s March 26,
2018 Order was improper in amending nunc pro tunc
the court’s February 3, 2017 Order. We disagree.
The March 26, 2018 Order specified the actual
monetary amounts to be released to CSA from the
Wells Fargo Accounts. That order modified nunc pro
tunc the February 3, 2017 Order, which had stated the
percentage of funds on deposit (60 percent) to be
released rather than the specific amount. The trial
court explained that Wells Fargo would not release the
funds unless it received an order stating the specific
dollar amount. The March 26, 2018 Order therefore
did not make any substantive change to the court’s
prior order, but simply expressed the amounts affected
by that order in a different manner.
Clerical error in a judgment may be corrected
nunc pro tunc at any time. (Careaga. supra, 61 Cal.2d
at p. 474; In re Marriage of Kaufman (1980) 101
Cal.App.3d 147, 151 (Kaufman).) A nunc pro tunc
correction is proper if it reflects the court’s intention in
entering the original order and does not “alter the
meaning or legal effect of the original decree.”
(Careaga, at p. 474.) “ ‘The function of a nunc pro tunc

App.20

order is merely to correct the record of the judgment
and not to alter the judgment actually entered—not to
make an order now for then, but to enter now for then
an order previously made.’ ” (Id. at p. 474, quoting
Smith v. Smith (1952) 115 Cal.App.2d 92, 99–100.)
Here, the trial court’s March 26, 2018 Order
did not alter the meaning or legal effect of the prior
order; it simply performed the arithmetical calculation
necessary to translate the percentage of funds
identified in the prior order to a specific amount. It
conformed to the trial court’s original intention in
identifying the levied funds that Wells Fargo should
release to CSA. The trial court’s February 3, 2017
Order was erroneous in the sense that it did not
identify those funds in a manner that would actually
accomplish the release. The trial court properly
ordered a nunc pro tunc change to accomplish what
the February 3, 2017 Order was intended to do.
ASAP argues that the March 26, 2018 Order
was improper because it was “based on evidence that
did not exist at the time the judge rendered the
original January 4, 2017 order.” ASAP claims the
order was “based on a memorandum of garnishee
dated January 10, 2017 faxed or re-faxed to the
Sherriff’s department on October 24, 2017.” ASAP’s
argument apparently is that the specific amounts set
forth in the trial court’s final order to be released to
CSA were computed based on 60 percent of the
account balances identified in the October 24, 2017 fax

App.21

rather than on the account balances as of January 4,
2017.
ASAP’s argument, even if true, does not show
any prejudice and does not identify any impropriety in
the nunc pro tunc nature of the trial court’s March 26,
2018 Order. The only difference between the account
balances listed in the October 24, 2017 fax and the
account balances that ASAP identified in its pleadings
prior to the January 4, 2017 Order is that the October
24, 2017 fax lists one of the accounts as containing
$125 less than what ASAP previously claimed was in
the account.12 That discrepancy actually reduced the
amount that the trial court’s order made available to
CSA. The trial court’s calculation mistake (if it was a
mistake) did not prejudice ASAP. Nor does it show
that the trial court intended to alter the meaning or
legal effect of its original order.
The matter was scheduled for oral argument at
9:00 a.m. Appellant’s counsel Nina Ringgold failed to
appear and the clerk was unable to contact her. The
court held the matter until the end of calendar, with
one case remaining. Counsel for the respondent CSA
agreed to waive argument and submit the matter on
the briefs. The matter was submitted without
--------------------------12
In pleadings filed on December 9, 2016, and
December 20, 2016, ASAP claimed that the accounts
at issue contained $1,017.06, $2,811.01, and $2,449.47.
The October 24, 2017 fax stated that those accounts
contained $1,017.16, $2811.01, and $2,324.47.

App.22

argument. Thereafter Ms. Ringgold informed the court
electronically that she had been in an automobile
accident that morning and accordingly could not reach
the courtroom by 9:00 a.m. Because Ms. Ringgold’s
communication contained no specific request, the court
filed its opinion.
DISPOSITION
The trial court’s orders are affirmed. Canon Solutions
America, Inc. is entitled to its costs on appeal.
NOT TO BE PUBLISHED.
LUI, P.J.
We concur:
ASHMANN-GERST, J.
CHAVEZ, J.

App.23

APPENDIX B
Court of Appeal, Second Appellate District, Division
Two - Nos. B284364, B286786, B290367
S254463
Supreme Court
FILED
Apr 10 2019
Jorge Navarrete, Clerk
___________
Deputy
IN THE SUPREME COURT OF THE CALIFORNIA
En Banc
ASAP COPY AND PRINT et al.,
Plaintiffs and Appellants
v.
CANON SOLUTIONS AMERICA, INC.,
Defendant and Respondent
------------------------------------------ASAP COPY AND PRINT et al.,
Plaintiff and Appellant
v.
CANON SOLUTIONS AMERICA, INC.,
Defendant and Respondent
The request for judicial notice is granted.
The petition for review is denied.

App.24

APPENDIX C
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 2
ALI TAZHIBI et al.,
Claimants and Appellants,
v.
CANON BUSINESS SOLUTIONS-WEST, INC. et al.,
Defendants and Respondents.
B284364
Los Angeles County Super. Ct. No. PC043358
THE COURT:
Petition for rehearing is denied.
cc: File
Lynnda Ann

App.25

APPENDIX D
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO
ASAP COPY AND PRINT; ALI
2nd Civ.
TAZHIBI dba ASAP COPY
No. B290367
AND PRINT ; ALI TAZHIBI,
AZITA DARYARAM, MASIH
TAZHIBI, MATIN TAZHIBI
LASC No.
Appellants,
PC043358
v.
CANON BUSINESS SOLUTIONS,
INC.; CANON FINANCIAL SERVICES,
INC.; GENERAL ELECTRIC CAPITAL
CORP.; HEMAR, ROUSSO & HEALD LLP )
Respondents.
APPELLANT’S REQUEST FOR JUDICIAL NOTICE
On Appeal From Orders of the Superior Court of the
State of California, County of Los Angeles, The
Honorable Barbara J. Scheper, The Honorable
Stephen Pfahler
NINA RINGGOLD, Esq. (SBN 133735)
17901 Malden St., Northridge, CA 91325
Telephone: (818) 773-2409
Attorney for Appellants

App.26

Appellants request for judicial notice of the
items specified below pursuant to Cal. Evidence Code
§ 459. This court may take judicial notice of court
records filed in the federal court. The matters are
relevant to this appeal as to the issue of judicial
disqualification and the nature of the documents
which had been sealed in the state court and by court
order are now publically filed in the federal court.
Exhibit
No.
1

2

Item

Bates
Stamp
Nos.
1-5

Filed: February 20, 2014.
Defendants, Superior Court Of
California, County Of Los Angeles,
et al’s Certification Of Interested
Parties--Admission by Justice Boren
that he has “a financial interest in
the subject matter in controversy or
in a party to the proceedings or have
a non--‐ ‑ financial interest in the
subject matter in controversy or in a
party to the proceedings or in a
party that could be substantially
affected by the outcome if the
proceedings” (ASAP et al v. Brown,
USDC 13-cv-04621)
Filed: August 23, 2015. Motion to
6-14
file Exhibit No. 7 to Ex Parte
Application for TRO, protective

App.27

3

4

5

order, and on issuance of order to
show cause re preliminary
injunction without sealing as to
Appellants’ Excerpts of Record
(ASAP et al v. Brown, USCA 9th
Cir. 14-56603)
Filed: October 1, 2015. Order of the
15-16
Ninth Circuit allowing public filing
of documents sealed by the State
Court at issue in the present appeal
(ASAP et al v. Brown, USCA 9th
Cir. 14-56603)
Filed: December 12, 2015. Excerpt
17-82
from Appellants’ Second
Supplemental Excerpts Of Record,
Volume 26 (Exhibit 127)DOCUMENTS SEALED IN STATE
COURT AND UNSEALED IN
FEDERAL COURT (ASAP et al v.
Brown, USCA 9th Cir. 14‑ 56603)
Filed: December 15, 2015. Order to
83=85
file Appellants’ Second
Supplemental Excerpts Of Record,
Volume 26 (Exhibit 127) (ASAP et al
v. Brown, USCA 9th Cir. 14-56603)

Dated: August 24, 2018

Respectfully Submitted,
By: s/ Nina R. Ringgold, Esq.
NINA RINGGOLD, Esq.
Attorney for Appellants

App.28

EXHIBIT 1
RJN-001
Case 2:14-cv-03688-R-PLA Document 53 Filed
02/20/14 Page 1 of 4 Page ID #:2970
Kevin M. McCormick - CSBN 115973
BENTON, ORR, DUVAL & BUCKINGHAM
A PROFESSIONAL CORPORATION
39 North California Street
Post Office Box 1178
Ventura, California 93002
Telephone: (805) 648-5111
Facsimile: (805) 648-7218
E-mail: kmccormick@bentonorr.com
Attorney for Defendants, Superior Court of California,
County of Los Angeles; Judge Barbara Scheper; Judge
Douglas Sortino; Judge Carolyn Kuhl; John A. Clarke;
William Mitchell; Sherri Carter; Nagi Ghobrial; Sylvie
Bland; Ovsanna Chaparyan; Justice Roger Boren;
Joseph Lane; Becky Fischer; Frank McGuire; Jennifer
Casados; Nicole Benavides; and Linda McCulloh

App.29

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
ASAP COPY AND PRINT,
ET AL,
Plaintiffs,
v.
JERRY BROWN, ET AL,
Defendants.

CASE NO. 13-cv-04621 SI
DEFENDANTS,
SUPERIOR COURT OF
CALIFORNIA, COUNTY
OF LOS ANGELES, ET
AL'S CERTIFICATION
OF INTERESTED
PARTIES
[ND CA Local Rule 3-15]
Judge: Hon. Susan Illston

COME NOW defendants, the Superior Court of
California, County of Los Angeles (“LASC”): Barbara
Scheper, Judge of the LASC; Douglas Sortino, Judge of
the LASC; Carolyn Kuhl, Judge of the LASC; John A.
Clarke, Former Executive Officer of the LASC;
William Mitchell, Interim Executive Officer of the
LASC; Sherri Carter, Executive Officer of the LASC;
Sylvie Bland, Judicial Assistant, LASC; Nagi
Ghobrial, Management Analyst of the LASC; Ovsanna
Chaparyan, Court Services Assistant III, LASC; Roger
Boren, Justice of the California Court of Appeal,
Second Appellate District; Joseph Lane, Clerk and
Executive Officer of the California Court of Appeal,
Second Appellate District; Becky Fischer, Supervising
Deputy Clerk of the California Court of Appeal,
Second Appellate District; Frank McGuire, Court

App.30

Administrator and Clerk of the California Supreme
Court; Jennifer Casados, Supervising Deputy Clerk of
the California Supreme Court; Nicole Benavidez,
Deputy Clerk of the California Supreme Court; and
Linda McCulloh, Senior Attorney, Center for Judiciary
Education and Research (“CJER”), Judicial and Court
Operations Services Division, (hereinafter and
collectively the “Judicial Branch Defendants” or
“JBD”), and certify that the following persons,
association of persons, firms, partnerships,
corporations or other entities have a financial interest
in the subject matter in controversy or in a party to
the proceedings or have a non-financial interest in the
subject matter in controversy or in a party to the
proceedings or in a party that could be substantially
affected by the outcome if the proceedings as follows:
• Superior Court of California, County of Los Angeles
(LASC); Barbara Scheper, Judge of the LASC; Douglas
Sortino, Judge of the LASC; Carolyn Kuhl, Judge of
the LASC; John A. Clarke, Former Executive Officer
of the LASC; William Mitchell, Interim Executive
Officer of the LASC; Sherri Carter, Executive Officer
of the LASC; Sylvie Bland, Judicial Assistant, LASC;
Nagi Ghobrial, Management Analyst of the LASC;
Ovsanna Chaparyan, Court Services Assistant III,
LASC;
• California Court of Appeal, Second Appellate
District; Roger Boren, Justice of the California Court

App.31

of Appeal, Second Appellate District; Joseph Lane,
Clerk and Executive Officer of the California Court of
Appeal, Second Appellate District; Becky Fischer,
Supervising Deputy Clerk of the California Court of
Appeal, Second Appellate District;
• California Supreme Court; Frank McGuire, Court
Administrator and Clerk of the California Supreme
Court; Jennifer Casados, Supervising Deputy Clerk of
the California Supreme Court; Nicole Benavidez,
Deputy Clerk of the California Supreme Court; and
• Judicial Council of California, Administrative Office
of the Courts; Linda McCulloh, Senior Attorney,
Center for Judiciary Education and Research
(“CJER”), Judicial and Court Operations Services
Division.
Dated: February 20, 2014 BENTON, ORR, DUVAL &
BUCKINGHAM
By: /s/ Kevin M. McCormick
Kevin M. McCormick
Attorney for Defendants,
Superior Court of
California, County of Los
Angeles; Judge Barbara
Scheper; Judge Douglas
Sortino; Judge Carolyn
Kuhl; John A. Clarke;

App.32

William Mitchell; Sherri
Carter; Nagi Ghobrial;
Sylvie Bland; Ovsanna
Chaparyan; Justice Roger
Boren; Joseph Lane; Becky
Fischer; Frank McGuire;
Jennifer Casados; Nicole
Benavides; and Linda
McCulloh

App.33

PROOF OF SERVICE
ASAP Copy and Print, et al, v. Brown, et al
Case No. 13-cv-04621 SI
STATE OF CALIFORNIA, COUNTY OF VENTURA
I certify that I am employed in the County of
Ventura, State of California. I am over the age of 18
and not a party to the within action. My business
address is 39 N. California Street, Ventura, CA 93001.
On February 20, 2014, I served the foregoing
document(s) described as:
DEFENDANTS, SUPERIOR COURT OF
CALIFORNIA, COUNTY OF LOS ANGELES, ET
AL’S CERTIFICATION OF INTERESTED PARTIES
on the interested parties in this action as follows:
BY CM/ECF NOTICE OF ELECTRONIC FILING: I
caused said document(s) to be served by means of this
Court’s electronic transmission of the Notice of
Electronic Filing through the Court’s transmission
facilities, to the parties and/or counsel who are
registered CM/ECF Users set forth in the service list
obtained from this Court.
Executed on February 20, 2014, at Ventura,
California.
/s/ Kevin M. McCormick
Kevin M. McCormick

App.34

EXHIBIT 2
RJN-006
9th Cir. Civ. Case No. 14-56603
USDC Case No. 2:14-cv-03688-R-PLA
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________
ASAP COPY AND PRINT, ALI TAZHIBI dba ASAP
COPY AND PRINT,
NINA RINGGOLD, ESQ AND THE LAW OFFICES
OF NINA RINGGOLD,
Appellants,
v.
JERRY BROWN in his Individual and Official
Capacity as Governor of the State of California and in
his Individual and Official Capacity as Former
Attorney General of the State of California et al.
Appellees.
____________________
From the United States District Court for the Central
District, The Honorable Manuel Real
__________________________________________________
MOTION TO FILE EXHIBIT 7 TO EX PARTE
APPLICATION FOR TEMPORARY RESTRAINING
ORDER, PROTECTIVE ORDER AND ON

App.35

ISSUANCE OF ORDER TO SHOW CAUSE RE
PRELIMINARY INJUNCTION WITHOUT SEALING
AS VOLUME 26 OF APPELLANTS’ EXCERPTS OF
RECORD
__________________________________________________
NINA R. RINGGOLD, ESQ.
(SBN (CA) 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Telephone: (818) 773-2409
Facsimile: (866) 340-4312
Attorney for the Appellants
TO THE HONORABLE JUSTICES OF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
Plaintiffs and Appellants hereby request
permission to file Exhibit 7 of the ex parte application
for temporary restraining order, protective order, and
on issuance of order to show cause re preliminary
injunction [ 28 U.S.C. § 292] filed in the United States
District Court for the Central District of California on
July 6, 2014 without sealing. Appellants request to file
this document as Volume 26 to Appellants’ Excerpts of
Record. (See Appellant’s Opening Brief “AOB” p. 18 fn
13).

App.36

Appellants strenuously object to the documents
being filed under seal. However, if the court declines
this request, it is requested that Volume 26 of
Appellants’ Excerpts of Record consist of the sealed
Exhibit 7 to the July 6, 2014 ex parte application.
The documents relevant to this motion are
included in the appellants’ excerpts of record and are
hereby incorporated by reference. Appellants do not
wish to withhold records from public disclosure.
Appellants have mailed one copy of the proposed
Volume 26 of their excerpts of record to the court
provisionally under seal.
1. FACTUAL STATEMENT
On July 7, 2015 appellants filed an ex parte
application for TRO and OSC re preliminary
injunction in the district court. (See Appellants’
Excerpts of Record “ER” ER2.141-4.611)1.
Appellants expressly objected to filing Exhibit 7
to the application for injunctive relief under seal. They
indicated that out of caution they were lodging the
documents under seal because to do otherwise could
potentially subject them to damages. (ER 2.143:13-16,
2.159:12-15, 2.168-9 ¶ 6-9, 2.171 (Ex 7), 2.198-199 ¶ 12), 2.221-222 (Cal.Rule of Ct. 2.551 (b)(3)(B)), 2.265327).
The documents were lodged with the district
court in accord its local rules of court. Again,
--------------1 Citation method: Vol. No. Bates Stamp Nos.

App.37

appellants objected to the documents being sealed and
to the submission to the court under seal. (ER2.2.122140, 2.125 “Plaintiffs object to the documents being
sealed….The documents are the subject of the March
4, 2010 sealing order of the state court which is
attached. No motion has ever been made to seal the
records. No findings have ever been made as to
whether there is good cause for sealing. Nevertheless,
plaintiffs must file the documents under seal because
the language of the order attached could subject
plaintiffs to damages if they are filed in the public
record.”); See also ER1.102:16-103:10).
The district court denied the application to seal
because good cause was not shown for the records to
be sealed and because a dismissal order had been
entered on July 10, 2015. (ER2.87-89). Appellants
agree with the district court’s finding that there did
not exist good cause to seal the records. Respondents
never challenged this finding.
In the state court, even though no motion to
seal was filed or finding that sealing was in the public
interest, appellants complied with the state rules of
court to unseal records for purposes of adjudication in
contested proceedings. However, the state clerk of
court has failed to comply with her/his mandatory
ministerial duties. (a non-judicial function). See ER
2.173:7-8, ER3.377-418)

App.38

2. LEGAL ARGUMENT
THERE DOES NOT EXIST GOOD CAUSE TO
FILE EXHIBIT 7
UNDER SEAL
There does not exist good cause for sealing
Exhibit 7 because no motion to seal was filed in the
state court and no findings demonstrating that sealing
is the public’s interest was made in the state court. A
trial court sealing order without the required and
mandatory findings required by Cal. Rule of Court
2.550 (d)-e) is entitled to “no weight”. See Huffy Corp.
v. Superior Court, 112 Cal.App.4th 97 (Cal. 2003), See
also NBC Subsidiary (KNBC-TV), Inc. v. Superior
Court, 20 Cal.4th 1178 (Cal. 1999). The right of access
is important to government accountability which is
viewed as essential to democracy. See Brown &
Williamson Tobacco Corp. v. F.T.C., 710 F.2d 1165,
1179 (6th Cir. 1983)(“[i]n either the civil or criminal
courtroom, secrecy insulates the participants, masking
impropriety, obscuring incompetence, and concealing
corruption”). There does not exist good cause in this
case or in general to continue with a sealing condition
when no motion to seal or findings were ever made.
Compare Foltz v. State Farm Mutual Automobile
Insurance Company, 331 F.3d 1122 (9th Cir. 2003).
The district court made a finding that good
cause did not exist for sealing. Respondents never
challenged this finding and never opposed the position

App.39

taken by appellants on the application regarding
sealing.
Under Circuit Rule 27-3 there does not exist a
basis to require Exhibit 7 to be filed under seal
because sealing is not permitted by law and
respondents will be unable to demonstrate (1) a
motion to seal filed in the state trial court, (2) an order
of the state trial court ruling on a motion to seal with
the required findings of fact (including as to the public
interest), or (3) that they made any effort to challenge
the district court’s order finding no good cause to seal.
Additionally, it is undisputed in both the state and
federal court that appellants never agreed to a sealing
condition or to be exposed to damages if they
attempted to use dispositive evidence in contested
proceedings. In other words there is no dispute that
the references in the sealing order on these points are
not true.
3. CONCLUSION
This court should grant the appellants’ motion
to file Exhibit 7 as Volume 26 to their excerpts of
record.
Dated: August 23, 2015

LAW OFFICE OF NINA
RINGGOLD
By: /s/ Nina Ringgold_____
Nina Ringgold, Esq.
Attorney for Appellants

App.40

DECLARATION OF NINA RINGGOLD
I am the attorney of record for the appellants in
this appeal. If called as a witness I could and would
competently testify to the following.
1. Appellants filed their excerpts of record on
June 14, 2015. (Dkt 21).
2. All of the documents referenced in this
motion are from Vol 2-4 of Appellant’s excerpts of
record and are hereby incorporated by reference.
I declare under penalty of perjury that the
foregoing is true and correct.
Dated: August 23, 2015
s/ Nina R. Ringgold

App.41

CERTIFICATE OF SERVICE
I hereby certify that on August 23, 2015, I
electronically filed the following documents with the
Clerk of Court for the United States Court of Appeals
for the Ninth Circuit by using the appellate CM/ECF
system:
MOTION TO FILE EXHIBIT 7 TO EX PARTE
APPLICATION FOR TEMPORARY
RESTRAINING ORDER, PROTECTIVE ORDER
AND ON ISSUANCE OF ORDER TO SHOW
CAUSE RE PRELIMINARY INJUNCTION
WITHOUT SEALING AS VOLUME 26 OF
APPELLANTS’ EXCERPTS OF RECORD
Participants in the case who are registered
CM/ECF users will be served by the CM/ECF system.
declare under penalty of perjury under the
laws of the State of California the foregoing is true and
correct and this declaration was executed on August
23, 2015 at Los Angeles, California.
s/ Matthew Melaragno

App.42

EXHIBIT 3
RJN-015
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
OCT 01 2015
MOLLY C. DWYER,
CLERK
U.S. COURT OF
APPEALS
----------------------------------------------NINA RINGGOLD; et al.,
Petitioners - Appellants,
v.
JERRY BROWN, in his
Individual and Official Capacity
as Governor of the State of
California and in his Individual
and Official Capacity as Former
Attorney General of the State of
California; et al.,
Respondents - Appellees,
------------------------------------------------

No. 14-56603
D.C. No. 2:14-cv03688-R-PLA
U.S. District Court
for Central
California, Los
Angeles
ORDER

The amended order filed on October 1, 2015
granted appellants’ motion to file Exhibit 7 publicly in
this court. Within 7 days from the date of this order,

App.43

appellants shall submit an electronic version of
Volume 26 of appellants’ excerpts of record, which
contains Exhibit 7, by selecting the Type of Document
“Submit Excerpts of Record for Review by the Court”
in CM/ECF. See http://www.ca9.uscourts.gov/excerpts.
FOR THE COURT:
Molly C. Dwyer
Clerk of Court
Liora Anis
Deputy Clerk

App.44

EXHIBIT 4
RJN-017
9th Cir. Civ. Case No. 14-56603
USDC Case No. 2:14-cv-03688-R-PLA
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________
ASAP COPY AND PRINT, ALI TAZHIBI dba ASAP
COPY AND PRINT, NINA RINGGOLD, ESQ AND
THE LAW OFFICES OF NINA RINGGOLD,
Appellants,
v.
JERRY BROWN in his Individual and Official
Capacity as Governor of the State of California and in
his Individual and Official Capacity as Former
Attorney General of the State of California et al.
Appellees.
____________________
From the United States District Court for the Central
District, The Honorable Manuel Real
__________________________________________________
APPELLANTS’ SECOND SUPPLEMENTAL
EXCERTPS OF RECORD
VOLUME 26
(Exhibit 127)

App.45

NINA R. RINGGOLD, ESQ.
(SBN (CA) 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Telephone: (818) 773-2409
Facsimile: (866) 340-4312
Attorney for the Appellants

App.46

EXHIBIT 127
Note:
App. Excerpts of Record Vol 1-24 , Exhibits 1 to 125
App. Supplemental Excerpts of Record Vol 25, Exhbit
126
App. Second Supplemental Excerpts of Record Vol 26,
Exhibit 127
RJN-019
ER-6549

App.47

EXHIBIT 7
RJN-020
The 62 pages are excluded from this appendix due to
the length (not because of sealing).

App.48

EXHIBIT 5
RJN-083
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
DEC 15 2015
MOLLY C.
DWYER, CLERK
NINA RINGGOLD; et al.,
Petitioners - Appellants,
v.
JERRY BROWN, in his Individual
And Official Capacity as Governor
of the State of California and in his
Individual and Official Capacity as
Former Attorney General of the State
Of California; et al.,
Respondents - Appellees,

No. 14-56603
D.C. No. 2:14cv-03688-R-PLA
U.S. District
Court for
Central
California
Los Angeles
ORDER

The Court has reviewed the supplemental
excerpts of record submitted on December 12, 2015.
Within 7 days of this order, appellants are ordered to
file 4 copies of the excerpts in paper format, with a
white cover. The paper copies must be in the format
described in 9th Circuit Rule 30-1.6.

App.49

The paper copies shall be submitted to the
principal office of the Clerk. For regular U.S. mail, the
address is P.O. Box 193939, San Francisco, CA 941193939. For overnight mail, the address is 95 Seventh
Street, San Francisco, CA 94103-1526.
RJN-084
FOR THE COURT:
Molly C. Dwyer
Clerk of Court
Liora Anis
Deputy Clerk
RJN-085

App.50

PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On August 24, 2018 I served a true and correct copy of
the following:
APPELLANTS’ REQUEST FOR JUDICIAL NOTCE
On the persons or entities indicated below by deposit
in the United States mail.
Lynnda McGlinn, Esq.
Dorsey & Whitney LLP
600 Anton Blvd. Suite 2000
Costa Mesa, CA 92626--‐ ‑ 7655
Attorneys for Canon Business Solutions, Inc.
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles, California
on August 24, 2018.
s/ Matthew Melaragno

App.51

EXHIBIT E
SUPREME COURT
FILED
AUG 25 2014 Frank A. McGuire Clerk
___
Deputy
G049148
Law Office of Nina Ringgold
9420 Reseda Blvd # 361
Northridge, CA 91324
(818) 773-2409 Telephone
(866) 340-4312 Facsimile
August 25, 2014
Justices of the California Supreme Court
California Supreme Court
350 McAllister Street
San Francisco, CA 94102-7303
Re: Request For Depublication Of Arthur
Gilbert v. John Chiang, As State Controller, Etc.
Pursuant California Rule Of Court, Rule 8.1125
By ASAP Copy And Print, Ali Tazhibi, David
Juarez, Nathalee Evans, Nazie Azam, Karim
Shabazz, Cornelius Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana Burks, Qadeer

App.52

Azam, Nina Ringgold, Esq., And The Law
Offices Of Nina Ringgold
Dear Justices of the Supreme Court:
ASAP COPY and Print, Ali Tazhibi, David
Juarez, Nathalee Evans, Nazie Azam, Karim
Shabazz, Cornelius Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana Burks, Qadeer Azam,
Nina Ringgold, Esq., and the Law Offices of Nina
Ringgold request that the published opinion
rendered in the Arthur Gilbert v. John Chiang, as
State Controller, etc, (2014) 227 Cal.App.4th 537
dated June 27, 2014 be depublished. See California
Rule of Court, Rule 8.1125. The decision became
final thirty days after filing on July 27, 2013. (Cal.
Rule of Court, Rule 8.264 (b)). This request is timely
delivered to the Supreme Court within 30 days after
the decision is final in the Court of Appeal. (Cal.
Rule of Court, Rule 8.1125 (a)(4)).
A.

Statement of Interest

The persons or entities requesting
depublication are interested in one or all of the
following categories:
1.

Court users; and/or

2.

Register California Voters; and/or

App.53

3.
Members of a protected case under the
Civil Rights Act of 1866 or the Civil Rights Act of
1964; and/or
4.
Members of the case, Law Offices of
Nina Ringgold and All Current Clients Thereof v.
Jerry Brown (United States District Court for the
Eastern District Case No. 2:12-cv-00717-JAM-JFM)
(“Voting Rights case”).
The decision of the Court of Appeal Fourth
Appellate District Division Three held that
California Constitution Article VI § 17 “does not
prohibit [Justice Arthur Gilbert] from commencing
other public office or public employment immediately
following his resignation or retirement from judicial
office, even if that resignation or retirement occurs
before the end of his current judicial term”. This
determination is in contradiction to longstanding law
in the State of California and is expressly contrary to
the plain language in the California Ballot Pamphlet
for the General Election on November 8, 1988
concerning the Legislative Constitutional
Amendment to California Constitution Art. VI § 17.
(Proposition 94). Moreover, the panel rendering the
decision had specific financial interests and should
not have been involved in the decision making
process. If there is an effort by members of the
judicial branch to modify the longstanding

App.54

interpretation and plain language of the constitution,
the matter should be determined by all voters of the
State of California. See Alex v. County of Los
Angeles, (1973) 35 Cal. App.3d 994, Abbott v.
McNutt, 218 Cal. 225 (Cal. 1933), Cal. Attorney
General Opn 83-607, 66 Cal. Attorney General 440.
Not only has an interested panel of decision makers
written an opinion in conflict with well-established
law, it is also in conflict with the information
provided to the electorate. Additionally, the panel
determines that the public must bear the expense of
Justice Gilbert’s appeal. Gilbert at 876.
B.

Context

The Gilbert decision was decided while there is
a fundamental controversy between voters and court
users and member of the judiciary concerning
Section 5 of California Senate Bill X2 11 (“Section 5
of SBX2 11”). Section 5 of SBX2 11 states as follows:
Notwithstanding any other law, no
governmental entity, or officer or
employee of a governmental entity,
shall incur any liability or be subject to
prosecution or disciplinary action
because of benefits provided to a judge
under the official action of a
governmental entity prior to the
effective date of this act on the ground

App.55

that those benefits were not authorized
under law.
The California Commission on Judicial
Performance has twice issued opinions that the
uncodified immunity provision is unconstitutional.
The provision also conflicts with the Supremacy
Clause and federal law pertaining to racial equality.
It is designed to conceal the fact that in existing
proceedings, judges of the courts of record must
disclose current public employment and they must
obtain consent from litigants in the proceedings.
(Cal. Const. Art. VI §§ 17, 21).
California Government Code § 53200.3 stated
that “judges of the superior and municipal
courts…whose salaries are paid either in whole or in
part from the salary fund of the county are county
employees….” This provision was deemed
unconstitutional in Sturgeon v. County of Los
Angeles, (2008) 167 Cal.App4th 630 (“Sturgeon I”).
Sturgeon I did not deal directly with section 5 of
SBX2 11.
The County of Los Angeles pays for the
premium for the public bond of the judges of the
courts of record. Also, the same judges were
designated by statute to be county officials. (See Cal.
Govt. Code §§ 1505, 1651, 29320 (thr 9/23/12)).

App.56

The pending Voting Rights Case challenges
section 5 of SBX2 11 and is seeking to implement
disclosure and consent requirements mandated by
California Constitution Article VI § 17 and § 21. It is
seeking a special judicial election in the municipal
districts that existed before trial court unification (a
point where public employment and office of the
judges of the courts of record expanded). The
plaintiffs claim there are existing constitutional
resignations and vacancies of judicial office which
must be disclosed to court users and the California
voters. The constitutional provisions at issue state
as follows:
Article VI, Section 17
A judge of a court of record may not practice
law and during the term for which the judge
was selected is ineligible for public
employment or public office other than
judicial employment or judicial office, except
a judge of a court of record may accept a parttime teaching position that is outside the
normal hours of his or her judicial position
and that does not interfere with the regular
performance of his or her judicial duties
while holding office. A judge of a trial court of
record may, however, become eligible for
election to other public office by taking a
leave of absence without pay prior to filing a

App.57

declaration of candidacy. Acceptance of the
public office is a resignation from the office of
judge.
A judicial officer may not receive fines or
fees for personal use.
A judicial officer may not earn retirement
service credit from a public teaching position
while holding judicial office.
Article VI, Section 21
On stipulation of the parties litigant the
court may order a cause to be tried by a
temporary judge who is a member of the
State Bar, sworn and empowered to act until
final determination of the cause.
There is serious doubt whether the appeal of
Justice Gilbert presented a justiciable controversy.
The justice never identified a specific job opportunity
at issue that he was intending to accept immediately.
He identified a friendly offer by the Governor for
possible work after retirement. There is no doubt
that the information provided to voters is in direct
conflict with Justice Gilbert’s position.
The ballot pamphlet stated the following:

App.58

“The Constitution prohibits judges of
courts of record from accepting public
employment or public office outside
their judicial position during their term
of office. This prohibition has been
interpreted to mean that a judge cannot
accept a teaching position at a public
school, but may accept one at a private
School. The prohibition applies
during the time the judge is
actually in office and during the
entire term for which the judge was
selected, even if the judge has
resigned part way through the
term.” (See Exhibit 1)
C.
The Rule of Necessity Did Not
Authorize The Fourth District’s Resolution of the
Appeal
The decision begins its analysis by attempting
to explain why members the panel did not recuse
themselves in the appeal. The decision states that
the panel asked the California Supreme Court
Committee on Judicial Ethics Opinions “to advise us
if the rule of necessity authorizes us to decide this
case. The committee advises us ‘[u]nder the ‘rule of
necessity,’ a judge is not precluded from adjudicating
a cause because of a disqualifying financial interest
if there is no judge or court available to hear and

App.59

resolve the cause.” (Emphasis added). Gilbert at
869.
First, there is no evidence of a request by the
panel. CJEO Oral Advice Summary No. 2014-008
states that “[t]he question was asked by an appellate
justice assigned to author an opinion”. The author of
the decision is Justice William F. Rylaarsdam who
was formerly a judge of the Orange County Superior
Court. The Orange County Superior Court has a
similar compensation structure as the Los Angeles
Superior Court and therefore the justice is a
recipient of the same immunity promise of section 5
of SBX2 11.
Not every judge in the State of California has
the same conflicting interest as Judge Rylaarsdam
and the panel deciding the Gilbert case. CJEO Oral
Advice Summary No. 2014-008 expressly states that
the rule of necessity does not preclude a judge from
adjudicating a cause because of a disqualifying
financial interest “if there is no judge or court
available to hear and resolve the cause.”
The judicial branch reported to the Legislature
that as of July 1, 2008 that there were at least 151
judgeships which received no supplemental benefits.
(See Exhibit 2). Initially Justice Gilbert’s case was
transferred out of his home court, the Second
Appellate District. The case was not transferred to a

App.60

district, panel, or judges pro tempore who were not
impacted by the promise of immunity through
section 5 of SBX2 11. Even if theoretically a
discussion of California Constitution Art. VI § 17
would impact any judge, the reality is that only
certain judges are subject to a self-effectuating
constitutional resignation from judicial office.
Justice Arthur Gilbert was formerly a judge of
the Los Angeles Superior Court and clearly a person
intended to be covered by section 5 of SBX2 11.
Because there exist a segment of the judicial branch
which have more specific disqualifying interests and
are intended to benefit from the uncodified immunity
provision, those persons should have been excluded
from the decision making process. Moreover, the test
of whether the complaint presented a justiciable
controversy should have been strictly construed
requiring a showing of actual retirement, or
admission of judicial resignation by acceptance of
public employment or office, or a specific offer of
employment which the impacted person intends to
accept immediately.
Application of the rule of necessity was not
proper because (1) there were other justices which
did not have the same disqualifying interest11, (2)

i.e., There are justices and judges which receive no benefit
from the promised immunity under section 5 of SBX2 11 and

11

App.61

there are pending cases in the federal court
addressing the issue, (3) this court had already
denied the petition for review of Justice Candace
Cooper (ret) after the Voting Rights case was filed on
March 21, 2012. (See denial of petition for review in
S200215 on 3/28/12), and (4) the seriousness of the
disqualifying interest of the panel goes well beyond
that identified by the Fourth District which failed to
take into consideration the existence and
detrimental impact of section 5 of SBX2 11.
D.
It Is The Decision Which Leads To
Absurd Results Not The Controller’s Defense Of The
Longstanding Interpretation Of California
Constitution Article VI § 17
The plain language of California Constitution
Art. VI § 17 states that a judge may not accept public
office during the term for which the judge was
selected. The term of office is set forth in the
constitution. The fact that a judge resigns early does
not nullify the disqualification during the term of
office. Not only is the language unambiguous, the
rational for the provision makes practical and
common sense. It is intended to bar a judge from
jumping ship to join those who were appearing before
the judge (and possibly receiving favorable treatment
from the judge).
justices and judges which have never accepted public
employment or office).

App.62

Alex v. County of Los Angeles supra
demonstrates that there could not realistically have
been a doubt as to the interpretation of California
Constitution Article VI § 17. This case stressed that
20 million citizens speaking through the initiative
process at the ballot box, approximately 40,000
attorneys through the State Bar, and 1,000 judges
speaking through the Judicial Council did not want
judges to be diverted from the impartial performance
of their work and that these desires were reflected in
California Constitution Article VI § 17 in order to
foster confidence in the courts. Alex at 1009. The
judge signed an affidavit acknowledging the risk of
forfeiture of judicial office. Gilbert v. Chiang
undermines public confidence. Moreover, section 5 of
SBX2 11 and Justice Gilbert’s pursuit of Assembly
Bill 2693 (Introduced by Assembly Member Bloom)
while the Gilbert’s case was pending undermines the
right of California citizens to have the benefit of the
constitutional amendment which they adopted.
IV.

CONCLUSION
It is respectfully requested that this court
depublish the case of Gilbert v. Chiang and that this
court strike the provision which provides that the
state is to pay for the expenses associated with the
appeal. Under the cloud of section 5 of SBX2 11 the
attempt to amend or modify the California
Constitution without participation of the electorate

App.63

by judges that have specific and unique disqualifying
interests beyond general retirement is void. See
Legislature v. Eu, 54 Cal.3d 492, 506-512 (Cal. 1991),
Amador Valley Joint Union High School v. State Bd.
Of Equalization, 22 Cal.3d 208 (Cal. 1978).
Date: August 24, 2014
Respectfully Submitted
By: s/ Nina R. Ringgold, Esq.
Nina Ringgold, Esq.
ASAP Copy And Print, Ali
Tazhibi, David Juarez,
Nathalee Evans, Nazie Azam,
Karim Shabazz, Cornelius
Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana
Burks, Qadeer Azam, Nina
Ringgold, Esq., And The Law
Offices Of Nina Ringgold

App.64

PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On August 24, 2014 I served the following:
REQUEST FOR DEPUBLICATION OF ARTHUR
GILBERT V. JOHN CHIANG, AS STATE
CONTROLLER, ETC. PURSUANT
CALIFORNIA RULE OF COURT, RULE 8.1125
BY ASAP COPY AND PRINT, ALI TAZHIBI,
DAVID JUAREZ, NATHALEE EVANS, NAZIE
AZAM, KARIM SHABAZZ, CORNELIUS
TURNER, JUSTIN RINGGOLD-LOCKHART,
LISA HAVEL, KIJHANA BURKS, QADEER
AZAM, NINA RINGGOLD, ESQ., AND THE LAW
OFFICES OF NINA RINGGOLD
by electronic service and personal delivery to
the following:
California Supreme Court
350 McAllister Street
San Francisco, CA 94102-7303
by deposit of a true and correct copy in the
United States Mail to the following:

App.65

Hon. Richard Fruin
c/o Clerk of Court
Los Angeles Superior Court Department 15
111 No. Hill Street
LA, CA 90012
Anthony R. Hakl
Deputy Attorney General Government Law Section
Office of the Attorney General
Department of Justice
1300 I Street, Suite 125
P.O. Box 9442255
Sacramento, CA 94244-2550
Legal Office
State Controller’s Office
300 Capitol Mall, Suite 1850
Sacramento, CA 95814
Elwood Lui
Jones Day
555 S. Flower Street, Fifth Floor
Los Angeles, CA 90071-2300
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles, California
on August 24, 2014.
s/ M. Matthew Melaragno

App.66

EXHIBIT F
California Constitution Article VI Section 17 states:
A judge of a court of record may not
practice law and during the term for
which the judge was selected is
ineligible for public employment or
public office other than judicial
employment or judicial office, except a
judge of a court of record may accept a
part-time teaching position that is
outside the normal hours of his or her
judicial position and that does not
interfere with the regular performance
of his or her judicial duties while
holding office. A judge of a trial court of
record may, however, become eligible
for election to other public office by
taking a leave of absence without pay
prior to filing a declaration of
candidacy. Acceptance of the public
office is a resignation from the office of
judge.
A judicial officer may not receive fines or
fees for personal use.
A judicial officer may not earn
retirement service credit from a public

App.67

teaching position while holding judicial
office.
California Constitution Article VI Section 21 states:
On stipulation of the parties litigant the
court may order a cause to be tried by a
temporary judge who is a member of the
State Bar, sworn and empowered to act
until final determination of the cause.
Cal. Govt. Code § 53200.3. Judges, officers and
attachés of superior
and municipal courts as county employees
For the limited purpose of the application of this
article, judges of the superior and municipal courts
and the officers and attachés of said courts whose
salaries are paid either in whole or in part from the
salary fund of the county are county employees and
shall be subject to the same or similar obligations
and be granted the same or similar employee
benefits as are now required or granted to
employees of the county in which the court of said
judge, officer, or attaché is located.
CCP § 681.020. Enforcement by assignee
An assignee of a judgment is not entitled to enforce
the judgment under this title unless an
acknowledgment of assignment of judgment to that

App.68

assignee has been filed under Section 673 or the
assignee has otherwise become an assignee of record.
CCP § 673.Assignee of right may become assignee of
record; procedure; acknowledgment of assignment
of judgment
(a) An assignee of a right represented by a judgment
may become an assignee of record by filing with the
clerk of the court which entered the judgment an
acknowledgment of assignment of judgment.
(b) An acknowledgment of assignment of judgment
shall contain all of the following:
(1) The title of the court where the judgment is
entered and the cause and number of the action.
(2) The date of entry of the judgment and of any
renewals of the judgment and where entered in the
records of the court.
(3) The name and address of the judgment creditor
and name and last known address of the judgment
debtor.
(4) A statement describing the right represented by
the judgment that is assigned to the assignee.
(5) The name and address of the assignee.
(c) The acknowledgment of assignment of judgment
shall be:
(1) Made in the manner of an acknowledgment of a
conveyance of real property.
(2) Executed and acknowledged by the judgment
creditor or by the prior assignee of record if there is
one.

App.69

(d) This section is in addition to, and does not limit
or restrict, any other means by which an assignee
may become an assignee of record.

